APPENDIX

App. 1
95 Mass.App.Ct. 1107
Unpublished Disposition
NOTICE: THIS IS AN UNPUBLISHED OPINION.
NOTICE: Summary decisions issued by the Appeals
Court pursuant to its rule 1:28, as amended by 73
Mass. App. Ct. 1001 (2009), are primarily directed to
the parties and, therefore, may not fully address the
facts of the case or the panel’s decisional rationale.
Moreover, such decisions are not circulated to the entire court and, therefore, represent only the views of
the panel that decided the case. A summary decision
pursuant to rule 1:28 issued after February 25, 2008,
may be cited for its persuasive value but, because of
the limitations noted above, not as binding precedent.
See Chace v. Curran, 71 Mass. App. Ct. 258, 260
n.4 (2008).
Appeals Court of Massachusetts.
Joseph R. MULLINS
v.
Joseph E. CORCORAN & another.1
18-P-1163
|
Entered: April 10, 2019.
MEMORANDUM AND ORDER
PURSUANT TO RULE 1:28
By the Court (Vuono, Blake & Ditkoff, JJ.2),
In this case involving claims and counterclaims of
breach of contract and breach of fiduciary duties, a
1
2

Gary A. Jennison.
The panelists are listed in order of seniority.

App. 2
judge of the Superior Court issued final judgments in
favor of the defendants, Joseph E. Corcoran and Gary
A. Jennison, following a jury-waived trial. The plaintiff,
Joseph R. Mullins, appeals from the judgments as subsequently corrected and amended. The defendants also
appeal, arguing that the Superior Court judge improperly calculated the damages. We affirm.
1. Background. The parties have been in business together since the 1970s when they formed a company now known as Corcoran, Mullins, Jennison, Inc.
(CMJ). The parties’ ownership interests in CMJ are
not equal. Corcoran has a sixty percent interest, and
Mullins and Jennison both have twenty percent interests. Pursuant to CMJ’s original bylaws, however, CMJ
is managed by a three-member board of directors, consisting of the parties or their designees. The board of
directors requires a majority vote to act. Thus, Corcoran does not control the daily business of CMJ despite
his majority interest.
CMJ is in the business of developing residential
real estate projects, and most of those projects have
been multifamily apartment buildings. To finance a
project, CMJ historically used its working capital to
cover the costs associated with conducting a feasibility
study and with obtaining regulatory approvals. CMJ
would then take out a construction loan to finance the
actual construction and, once the project was built and
stabilized, CMJ would obtain long-term financing secured by the property and its revenues. This long-term
financing typically came from government-subsidized
loan programs.

App. 3
In 1987, the parties entered into a new agreement
after Mullins decided that he wanted to start his own
business while still retaining an interest in CMJ. The
1987 agreement provided that CMJ would not guarantee the obligations of any entity and further provided
that CMJ would not enter into any new projects without the unanimous consent of all of the parties. A key
issue during trial was the timing of this consent provision and whether consent could be revoked once given.
The judge concluded that the 1987 agreement was ambiguous on this point, and he thus looked to extrinsic
evidence to determine the parties’ intent. After reviewing that evidence, including the parties’ past practices
and the costs associated with obtaining regulatory approvals, the judge found that the 1987 agreement required the parties to determine whether to consent to
a new project after the completion of the feasibility
study but before CMJ sought regulatory approvals.
The parties worked together amicably until 2001,
when Mullins brought his first lawsuit against Corcoran and Jennison. See Mullins v. Corcoran, 65 Mass.
App. Ct. 1122 (2006). After that, Corcoran refused to
meet or speak directly with Mullins about business
matters. Corcoran and Jennison instead arranged for
CMJ staff to have quarterly meetings with Mullins to
keep him apprised of CMJ’s remaining projects.
One of CMJ’s remaining projects involved a parcel
of land with four apartment buildings on one side and
a retail building on the other. This case concerns CMJ’s
plans to redevelop the retail side, referred to as Cobble
Hill Center. In 2009, Corcoran assigned his son the

App. 4
task of conducting a feasibility study. Mullins was
aware of this assignment. Several years later, in January 2012, CMJ staff informed Mullins of plans to develop an apartment building at Cobble Hill Center and
also provided him with a detailed report on the project.
Mullins received an updated report in June 2012. On
July 17, 2012, Mullins had a regularly scheduled quarterly meeting with CMJ staff, during which Corcoran’s
son made a presentation on the project. After the
presentation, Mullins consented to the project and was
fully supportive of it. CMJ then proceeded to obtain
regulatory approvals, which cost in excess of $ 1 million to obtain.
The project progressed until December 2013, when
Mullins received a status report from Corcoran’s son.
The status report included a proposal to give Corcoran’s son a ten percent interest in Cobble Hill Center
by reducing Mullins’s and Jennison’s interests to eighteen percent each and Corcoran’s interest to fifty-four
percent. In response to the status report, Mullins sent
a letter to Corcoran’s son requesting additional information on, inter alia, the financing strategy. Mullins
also asserted that he had not yet consented to the
project. Mullins subsequently received additional information on the financing strategy, which involved obtaining a construction loan, replacing the construction
loan with a permanent loan upon completion of construction, and ultimately refinancing the permanent

App. 5
loan with a government-subsidized loan.3 In response,
Mullins sent a letter to CMJ again asserting that he
had not yet consented to the project. The judge found
that Mullins’s stated reasons for not wanting to proceed with the project, including the proposal to reduce
his interest to eighteen percent and the riskiness of the
proposed financing strategy, were not made in good
faith.
After subsequent conversations during which the
parties could not reach an agreement, Mullins filed the
underlying lawsuit against Corcoran and Jennison to
prevent the project from proceeding, and he was successful in accomplishing that goal. In his complaint,
Mullins alleged that Corcoran and Jennison breached
their contractual and fiduciary duties by proceeding
with the development of Cobble Hill Center without
his consent. Corcoran and Jennison counterclaimed,
alleging that Mullins breached his contractual and fiduciary duties by interfering with the development of
Cobble Hill Center after consenting to the project.
2. Standard of review. In reviewing a judgment
entered after a jury-waived trial, we set aside the trial
judge’s findings of fact only if clearly erroneous. Goddard v. Goucher, 89 Mass. App. Ct. 41, 44 (2016). The
trial judge’s legal conclusions, however, are reviewed
de novo. Id.

3

Although not discussed by the Superior Court judge, the financing strategy also included a proposal that CMJ guarantee
the initial construction loan.

App. 6
3. The claims and counterclaims. We first address the successful counterclaims brought by Corcoran and Jennison against Mullins, as they are the focus
of the parties’ appeals.4 Corcoran and Jennison alleged
that Mullins breached his contractual and fiduciary
duties by revoking his consent to develop Cobble Hill
Center. On appeal, Mullins argues that (1) he had legitimate business reasons for revoking his consent,
and (2) he reasonably believed that, under the terms of
an ambiguous contract, he could revoke his consent because of changed circumstances.
We begin our analysis by reviewing the fiduciary
duty standard that applies to shareholders in a close
corporation such as CMJ. Because of the “trust and
confidence which are essential to this scale and manner of enterprise . . . [shareholders] in [a] close corporation owe one another substantially the same
fiduciary duty in the operation of the enterprise that
partners owe to one another” (footnote omitted). Donahue v. Rodd Electrotype Co. of New England, Inc.,
4

As a preliminary matter, Mullins argues that the judgment
against him is based, impermissibly, on his constitutional right to
petition the courts. Corcoran and Jennison correctly note that
Mullins did not raise this issue below. Mullins contends that the
issue was raised below, but he points only to a portion of the
judge’s directed verdict findings that discuss whether Corcoran’s
and Jennison’s counterclaims based on Mullins’s refusal to agree
to an ownership share for Corcoran’s son were based on protected
petitioning activity. Mullins does not cite anywhere in the record
where he argued that his own lawsuit constituted protected petitioning activity. The argument, therefore, is waived. See Carey v.
New England Organ Bank, 446 Mass. 270, 285 (2006) (issue not
raised below deemed waived on appeal).

App. 7
367 Mass. 578, 592-593 (1975). This duty is one of “utmost good faith and loyalty.” Allison v. Eriksson, 479
Mass. 626, 636 (2018), quoting Donahue, supra at 593.
In analyzing whether the duty of utmost good faith has
been breached, we look to whether there was a legitimate business purpose for the action taken and
whether there was an alternative, less harmful, way to
achieve the intended objective.5 Koshy v. Sachdev, 477
Mass. 759, 772 (2017).
With this standard in mind, we address Mullins’s
argument that he had three different legitimate business reasons for revoking his consent and filing his
lawsuit against Corcoran and Jennison: (1) the proposal to reduce his interest in the project; (2) the proposal to have CMJ guarantee the construction loan;
and (3) the riskiness of the proposed financing strategy.
As to Mullins’s first and second reasons, we consider
whether he had a legitimate business purpose for the
action taken. See Koshy, 477 Mass. at 772. We are
guided by the fact that Mullins’s intent in revoking his
consent and filing the underlying action was to prevent
the project from proceeding. With that in mind, we
acknowledge that Mullins may have had a basis for demanding that Corcoran and Jennison recognize his
right to veto a CMJ loan guaranty and a reduction in
his interest and, if they refused, to bring a declaratory
5

The 1987 agreement required the parties to conduct themselves in “scrupulous good faith.” The parties disagree whether
“scrupulous good faith” is a higher standard than “utmost good
faith.” As we affirm even applying the “utmost good faith” standard as urged by Mullins, we need not resolve this quandary.

App. 8
judgment action or take some other action to clarify the
parties’ rights under their agreements. That does not
mean, however, that Mullins had a legitimate business
purpose for halting, unilaterally, a project on which the
parties had just spent over $ 1 million to obtain regulatory approvals.
Mullins’s third reason is also unavailing. Mullins
argues that the proposed financing strategy was a different, riskier, strategy than the one that CMJ had
used historically. The June 2012 report that Mullins
received before initially consenting to the project, however, indicated that CMJ was exploring a different financing strategy. Mullins did not condition his consent
on any particular financing strategy, which is otherwise a business decision that would have been determined by a majority vote of the board of directors.6
Mullins’s second argument, that his reasonable interpretation of an ambiguous contract cannot give rise
to a finding of bad faith, is premised on the judge’s conclusion that there was some ambiguity in the 1987
agreement as to how long the parties had to decide
whether to consent to a new project.7 Mullins contends

6

We further note that we are bound by the judge’s findings
that Mullins’s stated reasons for revoking his consent were not
asserted in good faith, and we see nothing clearly erroneous about
these findings, which are ultimately based on credibility determinations. See Passero v. Fitzsimmons, 92 Mass. App. Ct. 76, 83
(2017) (“assessing the credibility of the witnesses was squarely
within the purview of the judge”).
7
Mullins also argues that the judge erroneously found that
Mullins could not revoke his consent under the 1987 agreement

App. 9
that a mere breach of a contract, based on a reasonable
interpretation of ambiguous contractual terms, cannot
be the basis for a finding of bad faith. That is not what
occurred here, however. In looking at the extrinsic evidence, the judge found that “it would not have made
rational business sense . . . to give each of the CMJ
principals absolute veto power over a new real estate
development project at any time before the terms of
long-term financing were finalized.” Based on the costs
CMJ typically incurred before finalizing long-term financing, we agree that Mullins’s interpretation was irrational and thus unreasonable. Moreover, Mullins’s
actions amount to more than a mere breach of contract.
Not only did he revoke his consent, he engaged in bad
faith conduct, using false assertions about the information he had received and the riskiness of the project.
He then acted in bad faith to prevent the project from
proceeding. In these circumstances, we see no merit to
Mullins’s argument. See, e.g., Federal Deposit Ins.
Corp. v. Holbrook & Johnston, 36 Mass. App. Ct. 424,
428-430 (1994) (involving ambiguous contract, defendant was liable for failing to perform his obligations
where such failure resulted from his bad faith, gross
negligence, actual fraud, or willful misconduct).
Having addressed Mullins’s arguments regarding
Corcoran’s and Jennison’s counterclaims, we turn to
Mullins’s arguments regarding his own claims. Mullins argues that the judgment was based on an erroneous finding that, even though there were material
once he learned of material changes to the project. This argument
has no merit, as discussed infra.

App. 10
changes to the proposed project, he could not revoke
his consent after the July 2012 meeting.8 We discern
no clear error in the judge’s finding that the 1987
agreement required the parties to determine whether
to consent to a new project before CMJ sought regulatory approvals. See Browning-Ferris Indus., Inc. v. Casella Waste Mgt. of Mass., Inc., 79 Mass. App. Ct. 300,
307-308 (2011) (meaning of ambiguous contract is
question of fact subject to “clearly erroneous” standard
of review). The judge’s finding is supported by the fact
that it typically cost CMJ a substantial amount of
money to obtain regulatory approvals. In addition, as
noted by the judge, material facts regarding a project
may change up until the completion of construction, or
possibly even later, and it would not have made sense
to allow revocation of consent that far into a project.
Instead, as the judge found, it made sense for those
business decisions to be left to a majority vote of the
board of directors.9
4. Damages. Mullins, as well as Corcoran and
Jennison, argue that the judge erred in calculating the
damages. We disagree. To put Corcoran and Jennison
8

Our conclusion regarding Mullins’s ability to revoke his
consent rests on his asserted objections to (1) the proposal to reduce his interest in the project; (2) the proposal to have CMJ guarantee the construction loan; and (3) the riskiness of the proposed
financing strategy. We need not decide whether Mullins could
have revoked his consent based on other hypothetical changes to
the proposed project.
9
Mullins argues that the judge erred in looking to the parties’
past practices in interpreting the timing of the consent provision.
Given the judge’s other well-grounded reasons for interpreting
the 1987 agreement as he did, we need not address this argument.

App. 11
back in the position they would have been had Mullins
not breached, the judge calculated lost profits by determining what Cobble Hill Center would have been
worth once stabilized and by then subtracting from
that amount (1) the likely cost to complete the project
and (2) the value of the land still owned by CMJ. See
Pasquale v. Casale, 72 Mass. App. Ct. 729, 736 (2008),
quoting Situation Mgmt. Sys., Inc. v. Malouf, Inc., 430
Mass. 875, 880 (2000) (“An award of ‘expectancy’ damages may include lost profits”). See generally John
Hetherington & Sons, Ltd. v. William Firth Co., 210
Mass. 8, 21 (1911) (setting forth long-established rule
for breach of contract recovery). In determining the
likely cost to complete the project, the judge credited
the testimony of Corcoran and Jennison’s expert witness that costs were increasing between 2013 and
2016. In determining the value of the land, the judge
credited an independent financial analysis indicating
that the parties could have sold the land in 2015, with
regulatory approvals in place, for $ 15 million.
Corcoran and Jennison argue that the judge
erred in considering the effect of inflation when determining the cost to complete the project. In making
this argument, Corcoran and Jennison rely on evidence indicating that they had plans to enter into a
guaranteed maximum price contract that would have
fixed the costs. No such contract had been finalized,
however, and we will not speculate on what contingencies any such contract may have included.10 In these
10

In fact, a CMJ monthly project report dated June 25, 2014,
less than one month before Mullins filed his lawsuit, indicated,
“We are expecting final pricing . . . during the first half of July.

App. 12
circumstances, we see no reason to set aside as clearly
erroneous the judge’s finding that it would have cost
$ 45 million to complete the project.
Mullins argues that the judge’s lost profits analysis will result in a double recovery for Corcoran and
Jennison, who still have an interest in the land and
may one day develop it for a profit. As described above,
however, the judge included in his calculation a reduction for the value of the land in 2015, with regulatory
approvals in place. This reduction takes into consideration the fact that the parties still control the land and
that they may eventually sell it for a profit. Mullins’s
arguments to the contrary challenge the judge’s findings regarding the value of the land and the possibility
of future profits, none of which are clearly erroneous.11
Corrected and amended judgments affirmed.

The construction contract will still need to be negotiated before
issuing notice to proceed. . . .”
11
For example, we are not persuaded by Mullins’s arguments that the parties could have entered into a presale transaction for an amount in excess of $ 60 million. Such a transaction
would have required CMJ to contract, before starting construction, to sell the property to a third-party investor at some future
date. Where Mullins, himself, testified that he was not aware of
any presale transactions in the Boston area, we see no error in
the judge’s finding that the possibility of any such transaction was
completely speculative.

App. 13
2018 WL 5985275 (Mass.Super.) (Trial Order)
Superior Court of Massachusetts.
Suffolk County
Joseph R MULLINS,
v.
Joseph E CORCORAN et al.
No. SUCV201402302.
June 19, 2018.
Amended Judgment on Finding of the Court
Kenneth W. Salinger, Judge.
*1 JUDGMENT FOR THE FOLLOWING PARTY(S)
Joseph E Corcoran
JUDGMENT
PARTY(S)

AGAINST

THE

FOLLOWING

Joseph R Mullins
This action came on before the Court, Hon. Kenneth W Salinger, presiding, and upon consideration
thereof,
After Non-Jury Trial, it is ORDERED AND ADJUDGED:
That judgment enter [sic] as outlined below,
Jointly & Severally with interest thereon as provided
by law, and the statutory costs of action.

App. 14
1. Date of Breach, Demand or
Complaint

08/12/2014

2.

06/19/2018

Date Judgment Entered

3. Number of Days of Prejudgment Interest (line 2-Line1)
4. Annual Interest Rate of
0.12/365.25 = Daily Interest rate
5.

Single Damages

6. Prejudgment Interest (lines
3x4x5)
7. Double or Treble Damages
Awarded by Court (where authorized by law)
8.

Statutory Costs

9. Attorney Fees Awarded by
Court (where authorized by law)
10. JUDGMENT TOTAL
PAYABLE TO PLAINTIFF(S)
(Lines 5+6+7+8+9)
DATE JUDGMENT ENTERED
06/19/2018
ASST. CLERK
X <<signature>>

1407
.000329
$9,000,000.00
$4,166,127.00
$

$5,370.52
$
$13,171,497.52

App. 15
COMMONWEALTH OF MASSACHUSETTS
Suffolk County

Superior Court

-------------------------------------JOSEPH R. MULLINS,
Plaintiff,
vs.
JOSEPH E. CORCORAN
and GARY A. JENNISON,

C.A. No.
SUCV2014-2302-BLS2

Defendants.
-------------------------------------BENCH TRIAL DAY 14
BEFORE:

The Hon. Kenneth W. Salinger
Thursday, June 14, 2018
10:00 a.m.

Held At:

Suffolk Superior Court
3 Pemberton Square, Room 1017
Boston, Massachusetts

Reporter: Janet M. Sambataro, RMR, CRR, CLR
fab@fabreporters.com
www.fabreporters.com
Farmer Arsenault Brock LLC
Boston, Massachusetts
617-728-4404
[2115] APPEARANCES:
Donnelly, Conroy & Gelhaar, LLP
T. Christopher Donnelly, Esq.
Timothy Madden, Esq.
260 Franklin Street
Boston, Massachusetts 02110

App. 16
617.720.2880 fax: 617.720.3554
tcd@dcglaw.com
thm@dcglaw.com
for Plaintiff
DLA Piper US LLP
Bruce E. Falby, Esq.
Bruce Barnett, Esq.
Jennifer Brown, Esq.
33 Arch Street, 26th Floor
Boston, Massachusetts 02110
617.406.6000 fax: 617.406.6100
bruce.falby@dlapiper.com
bruce.barnett@dlapiper.com
jennifer.brown@dlapiper.com
for Defendant Joseph E. Corcoran
[2116] APPEARANCES:

(Continued)

Posternak Blankstein & Lund LLP
Andrew R. Levin, Esq.
The Prudential Tower
800 Boylston Street, 32nd Floor
Boston, Massachusetts 02199-8004
617.973.6143
alevin@pbl.com
for Defendant Gary A. Jennison
[2117] INDEX
Description

Page

Recording of Judge’s findings

2118

[2118] PROCEEDINGS
COURT OFFICER:

Court. All rise.

App. 17
THE CLERK: Joseph R. Mullins Joseph E.
Corcoran, Civil Action 2014-2302.
Counsel, identify themselves for Judge Salinger
for the record, please.
MR. DONNELLY: Good morning, your Honor.
Christopher Donnelly, Donnelly Conroy Gelhaar, for
the plaintiff, Joseph Mullins.
MR. MADDEN: Good morning, your Honor.
Timothy Madden, also for the plaintiff, Mr. Mullins.
THE COURT:

Good morning.

MR. FALBY: Good morning, your Honor.
Bruce Falby for Joseph E. Corcoran.
MR. BARNETT:
Corcoran.
MS. BROWN:
Corcoran.

Bruce Barnett, also for Mr.
Jennifer Brown, also for Mr.

MR. LEVIN: Andrew Levin for Gary Jennison.
THE COURT:

And good morning to you all,

as well.
As everyone in the courtroom knows, this is a lawsuit brought by Mr. Joseph R. Mullins, the plaintiff,
against Joseph E. Corcoran and Gary A. Jennison, the
defendants. Mr. Mullins has asserted claims for breach
of contract and breach of fiduciary duty, and Mr. Corcoran and Mr. Jennison have asserted counterclaims for
breach of contract and breach of fiduciary duty.

App. 18
[2119] This case was tried before me without a
jury by agreement of all the parties. I heard evidence
over the course of 12 days, considered all of the 300 exhibits, considered the closing arguments by counsel on
both sides and the proposed findings that were submitted after that by both sides.
And you all are here, as you know, but I should
state for the record, because it is now time for me to
make relevant findings of fact and rulings of law and
to render a verdict on the claims and counterclaims in
this case.
I make the following findings based on all of the
evidence presented at trial and on reasonable inferences that I’ve drawn from that evidence.
I should note that I am not giving any weight to
the deposition testimony of Mr. Joseph E. Corcoran because it is apparent to me that when he testified at his
deposition, he had no clear memory of any relevant
events. I will also note that I do not believe that I would
have reached any different conclusions, made any different findings, if I had given substantive weight to
that testimony, as it was, essentially, cumulative of
other evidence that I’ve heard.
Let me start by making some findings about the
general background regarding this case. Mr. Corcoran,
Mr. Mullins, and Mr. Jennison have been in business
together since the early 1970s. They were working
closely together in the [2120] 1970s and 1980s, working to develop residential real estate projects, mostly
multifamily apartment buildings.

App. 19
Initially, they formed a company that they called
Residential Development, and in 1973, they changed
the name of the company to Corcoran Mullins Jennison, Inc., which I will refer to, as the parties have, as
“CMJ.”
At the beginning, Mr. Corcoran owned 80 percent
of that business and Mr. Mullins and Mr. Jennison each
owned 10 percent, but at some point, Mr. Mullins and
Mr. Jennison agreed to transfer full ownership of three
of CMJ’s projects to Mr. Corcoran and, in exchange,
their interest in CMJ increased to 20 percent each,
with the remaining 60 percent owned by Mr. Corcoran.
At some later point, Mr. Jennison transferred beneficial interest in some or a large portion of his 20 percent share, at least with respect to particular projects,
to various trusts that were created for tax planning
purposes.
Now, even though Mr. Corcoran owned a majority
share of CMJ, the company’s bylaws always provided that the business would be managed by a threemember board of directors, consisting of Mr. Corcoran,
Mr. Mullins, and Mr. Jennison, or their designees, and
that the board could act by a majority vote. So the daily
business of the company was not controlled by Mr. Corcoran; and, instead, CMJ could [2121] make business
decisions so long as at least two of the three board
members agreed.
For decades, Mr. Corcoran, Mr. Mullins, and Mr.
Jennison were the three board members. Only in recent years have Mr. Corcoran and Mr. Mullins

App. 20
designated somebody else to serve on the CMJ board
of directors in their place.
The CMJ bylaws provided that the board could
hold regular meetings whenever it wanted without advance notice, and it also provided that a meeting could
be held whenever a quorum of at least two board members was present. As a practical matter, Mr. Corcoran,
Mr. Mullins, and Mr. Jennison did so by meeting once
a week or once every other week in their offices and
making whatever business decisions were needed.
These three parties understood that the main
business of CMJ had been to develop multifamily
rental housing, to lease up, maintain, and hold each
project over the long term, and to take equity out of the
project and transfer it to Mr. Corcoran, Mr. Mullins,
and Mr. Jennison periodically by financing or refinancing the project; in other words, by borrowing money
through loans secured by the property and its future
income streams.
By the mid 1980s, CMJ had developed and owned
roughly 25 residential apartment projects. Each project was typically owned directly by a separate limited
partnership [2122] or limited liability company, which
was owned by Mr. Corcoran, Mr. Mullins, and Mr. Jennison, sometimes with other limited partners or members also holding minority interests in a particular
project, and the project would be managed by a separate CMJ subsidiary.
Throughout this time, up through the mid 1980s,
each of CMJ’s projects was financed in, essentially, the

App. 21
same way; CMJ would cover the costs of doing an initial feasibility analysis and the cost of seeking entitlements, zoning approvals and other regulatory
approvals, essentially, out of its working capital.
CMJ would then take out a construction loan to
cover the cost of building out the project if all approvals
that the parties have referred to as entitlements were
received, and then once the project was built and then
had been leased out and, therefore, financially stabilized, CMJ would obtain long-term financing secured
by the property and its revenues.
CMJ usually obtained long-term financing
through different government-subsidized loan programs. CMJ’s aim, when it obtained long-term financing for a project, was to borrow as much as it could in
an amount that exceeded what was needed to retire
the construction loan so that it could distribute the excess capital, that portion of the equity in the project, to
the three CMJ owners. In other words, [2123] CMJ
used long-term financing as a way to take equity out of
its projects, convert the equity to cash, and distribute
those amounts to Mr. Corcoran, Mr. Mullins, and Mr.
Jennison, or trusts that they designated.
As market rates and, thus, the amount that CMJ
could charge occupants of particular projects increased
over time, the higher rental income stream of a project
could support a higher amount of debt, thus creating
repeated opportunities to refinance each property, take
out equity, and transfer that equity to Mr. Corcoran,
Mr. Mullins, and Mr. Jennison.

App. 22
CMJ was very successful at this business model,
and its three principals each made, as I understand it,
many millions of dollars through this business.
By the mid 1980s or so, Mr. Mullins decided that
he wanted to start his own business, and eventually, in
March of 1987, the three principals, Mr. Corcoran, Mr.
Mullins, and Mr. Jennison, agreed to separate part, but
not all, of their existing business interests. They entered into a written contract to carry out that agreement.
The essence of this 1987 agreement is that Mr.
Mullins was free to do his own projects going forward;
that Mr. Corcoran and Mr. Jennison were free to do
their own projects, without Mr. Mullins, going forward;
they would divide up some, but not all of the existing
CMJ projects, [2124] and the other existing projects
would continue to be owned and managed by CMJ.
As to certain projects, Mr. Mullins sold his interest
to Mr. Corcoran and Mr. Jennison. To the extent those
projects had been owned by CMJ, rather than by separate entity, they were transferred to a new entity
formed by Mr. Corcoran and Mr. Jennison called Corcoran Jennison, Inc. The parties have referred to that
company as “CJ,” and I will do the same. CJ was owned
– as I understand it, it’s still owned – two-thirds by Mr.
Corcoran and one-third by Mr. Jennison.
Mr. Mullins took ownership of three of CMJ’s projects, and he has continued in business through an entity called Mullins Management Company.

App. 23
Most of the CMJ projects as of 1987 were to remain owned by CMJ, which itself remained owned in
60/20/20 shares by the three principals, as I’ve already
found.
This 1987 agreement specified that Mr. Corcoran,
Mr. Mullins, and Mr. Jennison would continue “to enjoy
all of the economic benefits of ” CMJ and its subsidiaries and affiliates, and they would do so “pro rata in accordance with their present stock ownership.” The
effect of this language was to guaranty that ownership
of the CMJ companies would continue to be allocated
60 percent to Mr. Corcoran, 20 percent to Mr. Mullins,
and 20 percent to [2125] Mr. Jennison.
The parties to that 1987 agreement, the three
principals, stated in the second “whereas” clause that
as to these properties, their intent was “to preserve and
continue the business of ” CMJ.
The 1987 agreement provided that going forward,
CJ would provide all services and duties needed to
manage and operate the projects that CMJ continued
to own. As a technical matter, the contract provided
that an entity called CMJ Management Company, Inc.,
would manage and operate the CMJ projects and that
CJ would provide all services and duties necessary to
manage and operate CMJ Management Company, in
exchange for being paid 12-1/2 percent of CMJ Management Company’s net profit.
The parties chose not to amend the CMJ bylaws
when they entered into their 1987 agreement, so the

App. 24
general rule remained that CMJ’s business decisions
could be made by a two-thirds vote of the CMJ board.
Now, the 1987 agreement made some exceptions
that are at the center of this case, exceptions that either required unanimous consent of Mr. Corcoran, Mr.
Mullins, and Mr. Jennison for certain actions or barred
certain actions altogether, which, in effect, meant that
such actions could only be undertaken with unanimous
consent of Mr. Corcoran, Mr. Mullins, and Mr. Jennison,
since, under Massachusetts [2126] law, they remain
free to amend their 1987 agreement at any time.
The 1987 agreement included a few other provisions or terms that are at issue in this case. The parties
agreed that all business dealings of or among Mr. Corcoran, Mr. Mullins, and Mr. Jennison personally, CMJ,
the other CMJ entities, or CJ, “shall be conducted in
scrupulous good faith according to good established
business practices and with full access of all such persons and entities to relevant documentation and records.”
The parties also agreed in the 1987 contract not to
do or fail to do anything that would either have the effect of frustrating or impeding the business activities
or prospects of CMJ or the other named business entities or that would interfere with fulfillment of any obligations under the agreement or that “would unfairly
reallocate the economic benefits” of CMJ or the other
named business entities.
The 1987 agreement provided that CMJ would not
“merge, sell, pledge, or transfer a major portion of its

App. 25
assets.” During the negotiations over the 1987 agreement, Mr. Mullins wanted the right to veto any sale,
transfer, or encumbrance of any CMJ property. Mr. Corcoran and Mr. Jennison, on the other hand, wanted majority rule, with nobody having a veto over any sale or
encumbrance. The [2127] compromise reflected in the
contract language is that unanimous approval would
be needed to sell or encumber a “major portion” of
CMJ’s assets, but that neither Mr. Mullins, nor the
other two principals, would be able to veto the sale or
encumbrance of a single property or anything else that
did not amount to a major portion of CMJ’s total assets.
The 1987 contract provided that CMJ would not
“guaranty the obligations” of any entity, and it also provided that Mr. Mullins was to be furnished with all reports prepared for the management of CMJ and the
other companies named in the agreement, and that
this was specifically to include all financial statements,
projections, feasibility reports, and budgets, and that
Mr. Mullins had the right to be apprised of – kept apprised of all material information.
One other provision of this 1987 agreement may
be the most significant in this dispute. At Page 7, the
contract provided that CMJ would not “enter into any
new ventures without the unanimous consent” of Corcoran, Mullins, and Jennison. There’s no requirement
in the contract that such consent be in writing; oral
consent, if unanimous, would be sufficient.
I find that this provision is ambiguous, because it
does not make clear when, during the process of

App. 26
planning and undertaking a new real estate development venture, [2128] unanimous consent of the CMJ
principals must be obtained. Since the provision is ambiguous, its meaning is a question of fact, not a question of law. See, for example, Seaco Insurance Company
v. Barbosa, 435 Mass. 772, 779 (2002).
The general principles of interpreting a contract,
including the 1987 agreement, are familiar. As with
any contract concerning a business venture, I must
construe this 1987 agreement in a manner that will
give it “effect as a rational business instrument and in
a manner which will carry out the intent of the parties.” That’s the Supreme Judicial Court of Massachusetts in the case of Robert and Ardis James Foundation
v. Meyers, 474 Mass. 181, 188 (2016).
In interpreting the contract, “The parties’ intent
must be gathered from a fair construction of the contract as a whole and not by special emphasis upon any
one part.” That is from Kingstown Corp. v. Black Cat
Cranberry Corp., 65 Mass. App. Ct. 154, 158 (2005). Appeals Court is quoting a few older SJC decisions, but I
won’t bother to read out those cites.
Since this provision requiring unanimous consent
where CMJ could enter into any new ventures without
unanimous consent, since this provision is ambiguous,
I may consider what the law refers to as extrinsic or
parol evidence, evidence other than the language of the
contract itself, [2129] “in order to give a reasonable
construction” to this contract “in light of the intentions
of the parties at the time of formation of the contract.”

App. 27
That’s from President and Fellows of Harvard College
v. PECO Energy Company, 57 Mass. App. Ct. 888, 896
(2003).
Among the other relevant evidence that I may consider, I’m allowed to consider “the course of dealing between the parties” in deciding what this provision
means. That is the SJC in Starr, 420 Mass. at 190, Note
11, and the SJC was quoting the Restatement (Second)
of Contracts Section 212, Comment b.
At CMJ, the process for developing a real estate
project on a particular site had always involved, essentially, three distinct stages, at least once a property
was identified or obtained.
The first stage was a thorough feasibility analysis
of what actually could be built at the site, taking into
account zoning and other regulatory requirements,
and also what could profitably be built at the site, taking into account likely development costs and the
stream of net revenue that the project would likely
generate once built.
The second stage was seeking and obtaining all
necessary zoning and other regulatory approvals. Real
estate developers and the principals in CMJ refer to
this as the process of seeking “entitlements,” those legal – [2130] I’m sorry – those legal approvals that, once
obtained, mean that the landowner is now entitled to
build a particular project.
The third stage was implementation of those entitlements by constructing the project and putting it into

App. 28
operation, which, in the case of the multifamily residential buildings typically constructed by CMJ, means
renting out the apartments or residential units.
Before the 1987 agreement, the process at CMJ for
deciding whether to enter into a new venture had always been the same. Once feasibility planning was
complete, Mr. Corcoran, Mr. Mullins, and Mr. Jennison
would decide whether they wanted to go forward with
the project and seek entitlements. They always treated
that as the go/no go point. If the three CMJ principals
decided to go forward, they would seek entitlements,
and if they successfully obtained entitlements, they
would build the project without second-guessing their
prior decision.
The practice of Corcoran, Mullins, and Jennison
before they entered into the 1987 agreement had always been to treat the decision to seek entitlements as
a decision to build the project. If entitlements were obtained, they did not reconsider their prior decision to
go forward; to the contrary, in every instance when
CMJ received entitlements, it then built the project
based on the decision they had [2131] made at the end
of the feasibility stage to proceed with the project.
This was CMJ’s business practice for several reasons: First, seeking entitlements is expensive. They required very detailed plans, reports, and applications,
and CMJ – the three principals did not want to incur
that substantial expense if they weren’t already committed to going forward with the project should they
obtain the entitlements they needed.

App. 29
Second, CMJ believed that its credibility was on
the line with local officials. If they sought entitlements
saying they planned to develop a proposed project, it
had always been their business practice to follow
through by, in fact, developing that project if the necessary entitlements were granted.
I find that when the parties agreed in 1987 that
CMJ could not enter into new ventures without unanimous consent, they intended, consistent with CMJ’s
past practice and the parties’ prior course of dealing,
that such consent would have to be obtained after
feasibility analysis was completed and before seeking
entitlements, and that consent to seek entitlements
would mean consent to proceed with and build the project if entitlements were obtained.
I also find that the parties did not intend to require unanimous consent to make any subsequent
decisions about [2132] how to best proceed with a new
venture. In other words, the parties’ intent was to require unanimous consent to enter into or pursue a new
venture, but once such consent to seek entitlements
was given for a new venture, then all subsequent decisions about that project could be made by two-thirds of
the CMJ directors, in accord with the CMJ bylaws.
Now, at trial, Mr. Mullins has argued through
counsel that under this contract provision, he could not
give or be asked to give consent to enter into a new
venture until he was given full information about and
the opportunity to accept or reject all material facts
concerning long-term financing for the project and

App. 30
concerning ownership of the project. I disagree, and I
find that is not what the parties intended.
Let’s separate out those two parts of the argument, starting with the argument about consent to
long-term financing. I find that it would not have made
rational business sense in 1987 to give each of the CMJ
principals absolute veto power over a new real estate
development project at any time before the terms of
long-term financing were finalized. Those terms could
not be known until after construction was complete, or
at least nearly complete, and, therefore, not until after
CMJ had already incurred the cost to build and develop the new venture. It was not [2133] until that
point in time that CMJ was able to go into the market
and seek long-term financing and find out what terms
would be available.
I find the intent of this new venture provision was
to require unanimous consent before CMJ incurred the
substantial cost of seeking entitlements, never mind
the even more substantial cost of building the project.
Now let’s turn to the argument about consent to
the ownership structure for each project. As I’ve already explained, the parties resolved this issue when
they negotiated and executed the 1987 contract by
agreeing and specifying in that contract that Mr. Corcoran, Mr. Mullins, and Mr. Jennison would all “enjoy
all of the economic benefits of ” CMJ and its subsidiaries and affiliates, and that they would do so “pro rata
in accordance with their present stock ownership.”

App. 31
It’s interesting that this provision appears in the
1987 agreement on Page 7 in the sentence immediately
preceding the unanimous consent requirement for new
ventures. This provision guaranteed that Mr. Mullins
would own 20 percent of any new venture approved by
all three principals. As a result, the parties did not intend that unanimous consent would be tied to any discussion regarding ownership structure.
Of course, since Mr. Mullins was guaranteed a
[2134] 20 percent ownership interest, that could not be
changed without his consent. It could not be changed,
perhaps, without unanimous consent. I don’t need to
reach that issue, but I do find that the provision requiring unanimous consent before entering into a new
venture was not tied to further discussion about ownership structure, because that was resolved in the 1987
agreement.
Let’s move forward from 1987. After the three
principals executed the 1987 agreement, for several
years they continued to meet every Tuesday or every
other week as the CMJ board to make any necessary
business decisions, as they always had. Those meetings
ended in 2001, after Mr. Mullins brought suit against
Mr. Corcoran and Mr. Jennison and against CMJ.
After Mr. Mullins sued him, Mr. Corcoran was no
longer willing to meet or speak directly with Mr. Mullins about business matters, and so, instead, Mr. Corcoran and Mr. Jennison arranged for top-level staff of
CMJ and CJ to have quarterly meetings with Mr. Mullins and his Mullins Management Company team to

App. 32
keep them apprised of and answer their questions regarding CMJ’s projects and businesses.
Marty Jones, who at least for some time was president of CMJ, ran these meetings until she left the company in 2001, and thereafter, Chris Holmquest ran
these quarterly meetings until he left CMJ and CJ in
November of 2014.
[2135] Mr. Mullins typically went to these quarterly meetings, accompanied by key members of his
small staff at Mullins Management Company. Sometimes Mullins Management Company staff would attend those meetings without Mr. Mullins.
During the 2012 to 2014 period of most interest in
this case, both Michael Mullins and Kayla Lessin typically accompanied Mr. Mullins at these quarterly
meetings with the CJ and CMJ staff. Sometimes David
Sullivan joined them, as well.
Michael Mullins is Mr. Mullins’ son. He joined
Mullins Management Company in 2000 and became
president of that company in 2006. He has an MBA and
also earned a master’s in real estate development from
MIT. Michael Mullins became a director of CMJ as of
January 1, 2016, succeeding his father as Mr. Mullins’
designated director on the CMJ board.
Kayla Lessin joined Mullins Management Company in January of 2010. She is trained as a lawyer,
having earned her JD from Northeastern Law School.
Her responsibilities at Mullins Management Company

App. 33
include, among other things, helping Mr. Mullins and
his son, Michael Mullins, oversee the CMJ portfolio.
David Sullivan is the outside consultant for Mullins Management Company. He’s not a full-time employee of the company, but he’s been involved in the
finances of [2136] Mr. Mullins and Mullins Management Company for years.
Let’s start focusing on the property that’s at issue
in this lawsuit. Under the 1987 agreement that I’ve
discussed, one of the existing CMJ projects that remained owned by CMJ was the Cobble Hill Apartments in Somerville. The property is located at the
intersection of Washington and New Washington
Streets, a short distance east of Union Square in Somerville, Massachusetts.
As of the 1987 agreement, the Cobble Hill project
consisted of four apartment buildings and a one-story
strip mall, essentially, that CMJ had constructed in
1982. The retail strip mall was at the western end of
the property and the four apartment buildings were on
the eastern side.
The four apartment buildings were each five or six
stories tall. Altogether, they contained 224 units, 190
one-bedroom units and 34 two-bedroom units. One unit
was occupied by the project superintendent; the other
223 units were all occupied by elderly or disabled tenants, whose rent was publicly subsidized under a socalled Section 8 contract.

App. 34
The Cobble Hill Apartments and the site as a
whole are within walking distance of the MBTA’s Sullivan Square Station on the Orange Line and also
within walking distance of Union Square in Somerville.
In September of 2003, CMJ decided to refinance
the [2137] Cobble Hill Apartments. As part of that
transaction, the three principals, Mr. Corcoran, Mr.
Mullins, and Mr. Jennison, decided to legally separate
the western portion of the Cobble Hill site, where the
one-story retail building was located, from the rest of
the site, where the four apartment buildings were located, so that the refinancing would be secured only by
the four apartment buildings and their revenue and
the portion of the site occupied by the retail building
would be separated and become available for redevelopment separate and apart from any financing of the
Cobble Hill Apartments.
Consistent with CMJ’s past practice, they formed
a new entity to control that retail or commercial portion of the site. They called the new entity Cobble Hill
Center, LLC. That new entity obtained a 99-year lease
of the existing commercial building and the 3.9 acres
surrounding it from the Cobble Hill Apartments Company that was the owner of the land, and it obtained
that lease in exchange for an initial payment equal to
the site’s then-appraised value or $1.326 million, plus
annual rent of $10 a year thereafter.
This lease gave Cobble Hill Center, LLC, the right
to purchase and take fee simple title to the building

App. 35
and leased parcel for nominal additional consideration,
one dollar, if subdivision and regulatory approval for
doing so was obtained.
[2138] Cobble Hill Center, LLC, was operated by
CMJ and was indirectly owned by Mr. Corcoran, Mr.
Mullins, and Mr. Jennison as follows: CMJ was the
manager of Cobble Hill Center, LLC. Cobble Hill Center, LLC, consisted of a single member, the Cobble Hill
Trust, which owned 100 percent of the interest in Cobble Hill Center, LLC. The sole beneficiary of the Cobble
Hill Trust was an entity called CMJ Cobble Hill, LLP,
and CMJ Cobble Hill, LLP, was owned 60 percent by
Mr. Corcoran, 20 percent by Mr. Mullins, and 20 percent by Mr. Jennison.
Neither side has argued in this case that any of
the claims or counterclaims should have been asserted
as a derivative action on behalf of CMJ Cobble Hill,
LLP, or any other entity, and I find that any such claim
or defense is waived.
Mr. Mullins did argue for the first time in his posttrial request for findings that Mr. Jennison is not the
real party in interest to assert his counterclaims because Mr. Jennison, it is argued, transferred some or
all of his share in CMJ Cobble Hill, LLP, to various
trusts that had been created for estate planning purposes.
I find that Mr. Mullins waived this issue by failing
to assert it as an affirmative defense in his answer, failing to present any evidence on the issue at trial, failing
to address it in his opening statement or closing

App. 36
argument. [2139] In any case, as I just explained, I find
that Mr. Jennison personally owned, and still owns, 20
percent of CMJ Cobble Hill, LLP, and I, therefore, find
Mr. Jennison is the real party in interest with respect
to the counterclaims he’s asserted in this case.
I’ll also note that if Mr. Mullins had not waived the
issue and if the record evidence had, in fact, shown that
Mr. Jennison had transferred some or all of his ownership interest in the Cobble Hill Center property to one
or more trusts, then I would exercise my discretion under Rules 15(b) and 17(a) of the Massachusetts Rules
of Civil procedure to allow Mr. Jennison to amend his
counterclaims to substitute or join the real party in
interest as plaintiffs-in-counterclaim. Bottom line, I
don’t see that as a real issue in the case.
Moving forward in time, although Mr. Mullins and
the other two CMJ principals agreed in 2003 to separate the Cobble Hill Center site from the rest of the
Cobble Hill Apartments site and to explore the feasibility of redeveloping the Cobble Hill Center property,
none of the three principals agreed at that time to seek
entitlements for a new venture on the Cobble Hill Center site. No feasibility planning had even been done at
that point in time.
I find that Mr. Mullins’ agreement in 2003 to legally [2140] separate the Cobble Hill Center site and
to explore the feasibility of redeveloping it was not consent to enter into – for CMJ to enter into a new venture
at that site.

App. 37
In 2009, CMJ made Joseph J. Corcoran, the son of
Joseph E. Corcoran, project director for the Cobble Hill
Center, assigning him responsibility to analyze the feasibility of redeveloping that site. Mr. Mullins was
aware of that.
In September of 2011, a rent comparability study
was prepared and completed for the Cobble Hill Apartments. That study was conducted by a HUD appraiser
named Joseph Antonelli, somebody who Mr. Mullins
knew and respected. Mr. Antonelli concluded that market rates in the area had increased substantially by
September of 2011.
A copy of that report was sent to Mr. Mullins, and
he understood that brand-new apartments, if any were
constructed at the Cobble Hill Center site next door,
would be able to produce even higher market rents
than those Mr. Antonelli found were the market rents
for the Cobble Hill Apartments.
So at least as of September of 2011, Mr. Mullins
had a good idea of the kind of revenue that a new
apartment building at Cobble Hill Center could produce on a per-unit basis.
During the regular quarterly meeting with Mr.
Mullins [2141] and the Mullins Management Company staff that was held in January of 2012, Chris
Holmquest informed Mr. Mullins that CMJ and Mr.
Joseph Corcoran were working on plans to develop a
160- to 170-unit apartment building at the Cobble Hill
Center site.

App. 38
At some point before the meeting, Mr. Holmquest
sent to Mr. Mullins a much more detailed status report
that had been prepared by Joseph J. Corcoran. That report informed Mr. Mullins that Joseph J. Corcoran was
recommending that CMJ “proceed forward with a plan
to build 167 units in a six-story wood-framed structure
over a podium.”
In the report that was sent to Mr. Mullins, Joseph
J. Corcoran explained that the City of Somerville had
made clear to him it wanted more density on the site;
that because of building code changes, CMJ could now
build a six-story building, consisting of five stories of
wood framing, rather than much more expensive steel
framing, over a one-story concrete podium, which
would make a six-story building of residential apartments economical, and it made clear that Joseph J.
Corcoran believed that CMJ could obtain entitlements
from the City of Somerville for a building of roughly
167 units.
The report also informed Mr. Mullins that it would
cost roughly $1.25 million to obtain entitlements and
get to the point where CMJ would be able to close on a
construction [2142] loan.
This report, the December 2011 report that was
sent to Mr. Mullins no later than early January of
2012, included pro forma financial statements analyzing the feasibility and likely profitability of an apartment building project at the Cobble Hill Center site.
In the report, Joseph J. Corcoran estimated it
would cost a total of about $36.7 million to develop a

App. 39
167-unit building, including the payment that had already been made to CMJ for the land. He estimated
the stabilized net operating income once the building,
if constructed, was rented out. Joseph J. Corcoran estimated annual gross income and operating expenses
from such a building, subtracting the two resulting in
an estimate that the stabilized building would produce
$2.836 million in annual net operating income before
debt service. In other words, that would be its cash
flow.
This report provided to Mr. Mullins said these estimates were made assuming that two-thirds of the
building would be studio or one-bedroom apartments
and that one-third would be two-bedroom apartments,
and that the rental rate assumptions used in these
pro forma financials were based on actual market
rates of two newer developments not too far away in
Charlestown and Medford.
Joseph J. Corcoran also calculated and reported in
this [2143] report to Mr. Mullins that on a HUD Section 221(d)(4) loan of $36.7 million, the estimated total
development costs, the annual debt service would be
about $2.2 million. This meant that the projected net
cash flow in these pro formas, after accounting for operating expenses and debt service, would be a positive
of more than $600,000 a year.
The pro formas that were sent to Mr. Mullins in
January of 2012 or so showed that, assuming that the
completed and stabilized project were [sic] valued in the
market at a 5 percent cap rate, a 167-unit residential

App. 40
apartment building at that site would be worth $56.7
million once stabilized, and, therefore, that the building would be worth roughly $20 million more than it
would cost to develop the building, a potentially huge
return.
I just talked about cap rate. As the parties here
understand, a cap rate is just the ratio of annual cash
flow to property value. It’s a standard metric used to
describe how real estate investors value commercial
real estate. Put another way, annual cash flow divided
by the cap rate equals the purchase price that an investor would be willing to pay. For any given cash flow,
the higher the cap rate, the lower the purchase price.
If Mr. Mullins or Michael Mullins thought that the
assumed cap rate of 5 percent were too low, it would
have taken them just a quick moment to recalculate
the projected [2144] profit using a higher cap rate.
I find that under the cost and revenue estimates
reported by Joseph J. Corcoran in this December 2011
report that was sent to Mr. Mullins, the project would
be very profitable even if the market cap rate, once the
building were stabilized, were materially higher than
5 percent.
For example, if one were to assume that the cap
rate to value the stabilized building would be 6 percent, rather than 5 percent, the building would still be
worth over $10 million more than the projected development costs. The math here is simple. Dividing Joseph J. Corcoran’s estimate that the stabilized building
would generate $2.836 million in annual net operating

App. 41
income by a 6 percent cap rate produces a market
value of $47.3 million for the completed project, which
is more than $10-1/2 million higher than the $36.7 million in development costs projected at that time by Joseph J. Corcoran.
This December 2011 report by Joseph J. Corcoran
included a number of possible rough site plans showing a 167-unit building recommended by Joseph J. Corcoran as Phase I of redevelopment of Cobble Hill
Center and showing that there would be room available to construct a second large apartment building on
the site in a hypothetical future Phase II.
[2145] In his December 2011 report, Joseph J. Corcoran explained that this was “a site planning exercise
only,” undertaken at the request of the City of Somerville, which itself was doing master planning for the
area because of the MBTA’s plan to extend the Green
Line subway system to Union Square.
Joseph J. Corcoran made clear in the report that
such a Phase II development would only be possible if
the City were to rezone the land and that approval for
a second building at the site could not be obtained under the existing zoning code.
In the spring of 2012, Joseph J. Corcoran asked a
general contractor named Plumb House to estimate
the cost of building a 167-unit apartment building at
this site under two alternative scenarios, with and
without prevailing wage requirements.

App. 42
Joseph J. Corcoran understood that one of the
HUD programs that might be available to provide
long-term financing for the project would require that
the project be built using union labor or paying other
labor at the prevailing wage available to union labor,
and so he wanted to get a better idea of what it would
cost to build the project either with or without union
labor.
Plumb House estimated that it would – estimated
what it would cost to construct the building that Joseph J. [2146] Corcoran had recommended in his December 2011 feasibility analysis, as I explained, a sixstory building consisting of five stories of wood framing
over a one-story podium, and Plumb House assumed
that it would have 168 residential units.
Plumb House’s estimates were that at the prevailing wage rates, it would cost around $36 million to construct this project, and if there were no prevailing
wage requirement, it would cost almost $27 million to
build the project, substantially less.
At the end of June of 2012, Chris Holmquest sent
an e-mail to Ms. Lessin and to David Sullivan of Mullins Management Company with a number of updates,
including an update about the Cobble Hill Center potential project.
Mr. Holmquest said in this e-mail that he would
ask Joseph J. Corcoran to attend the next quarterly
meeting between CMJ and Mullins Management Company in order to provide an update on the Cobble Hill
project.

App. 43
At this time, Mr. Holmquest sent Ms. Lessin and
Mr. Sullivan another copy of Joseph J. Corcoran’s December 2011 report. This is the same report that had
been provided already to Mr. Mullins in January of
2012.
At the same time, in a separate e-mail, Mr.
Holmquest also forwarded a copy of a more recent status report from Joseph J. Corcoran about the Cobble
Hill Center project [2147] dated June 15, 2012. In that
report, Joseph J. Corcoran explained that a condition
for obtaining HUD financing for new construction is to
pay prevailing wage rates that equal union rates, and
that preliminary estimates showed that prevailing
wage rates would increase construction costs by 8 or
$9 million. Mr. Corcoran attached to his June 2012 status report a copy of the analysis by Plumb House that
I’ve already described.
Ms. Lessin forwarded both of these reports, the December 2011 and the June 2012 reports from Joseph J.
Corcoran, she forwarded them both to Mr. Mullins and
to Michael Mullins before the planned quarterly meeting in July of 2012.
That meeting happened on July 17, 2012. The attendees included Chris Holmquest and Joseph J. Corcoran, as well as Mr. Joseph Mullins, Michael Mullins,
Kayla Lessin, and David Sullivan on behalf of Mr. Mullins and Mullins Management Company.
I infer and I, therefore, find that before this meeting, Mr. Mullins and Michael Mullins read at least the
two-page cover memo at the front of Joseph J.

App. 44
Corcoran’s December 2011 status report, reviewed the
attachments, and reviewed Joseph J. Corcoran’s June
2012 updated status report. Therefore, both Mr. Mullins and his son, Michael Mullins, knew from the very
first sentence to Joseph J. [2148] Corcoran’s December
2011 memorandum that Joseph J. Corcoran was recommending that CMJ “proceed forward with a plan to
build 167 units in a six-story wood frame structure
with a podium” at the Cobble Hill Center site in Somerville.
At the July 17 meeting, Mr. Joseph J. Corcoran reiterated his recommendation, and he made a detailed
presentation recommending that CMJ proceed with
and seek entitlements for the 167-or-so-unit residential building that he described in his December 2011
and June 2012 reports.
Mr. Corcoran used many handouts to walk Mr.
Mullins and his staff through the details of Mr. Corcoran’s feasibility analysis. Mr. Corcoran reiterated what
he had already reported in his written feasibility analyses. He explained why he believed the City would approve and grant all necessary entitlements for the
planned 167-unit building, he explained the likely cost
to seek entitlements, the likely cost to construct the
building, and he explained why the building, once complete, was likely to be very profitable for CMJ.
After Joseph J. Corcoran finished his presentation
at the July 17th, 2012, meeting, Mr. Mullins made clear
that he approved the project and fully supported going
forward with it. Mr. Mullins said he agreed with

App. 45
Joseph J. Corcoran’s recommendation. I find that Mr.
Mullins [2149] understood that he was agreeing with
the recommendation to seek entitlements for and then
proceed forward with building the planned 167-unit
building.
At the meeting, Mr. Mullins encouraged Joseph J.
Corcoran to hire a local Somerville lawyer to help with
the zoning approval process, echoing what Joseph J.
Corcoran himself had recommended in his December
2011 feasibility analysis report.
Mr. Mullins did not say at this meeting that he
needed any more information about how the project
would be financed or how its ownership would be structured before he could approve the project. He expressed no reservations or concerns about the project
or its financing.
I find that by agreeing at this meeting with Joseph
J. Corcoran’s recommendations, Mr. Mullins gave his
consent for CMJ to enter into a new venture at the
Cobble Hill Center site, to seek entitlements for a
roughly 167-unit residential apartment building at
that site, and to construct the project if the City issued
the necessary approvals. Joseph E. Corcoran and Gary
Jennison also gave their consent to CMJ entering into
this new venture.
Once all three principals, Mr. Corcoran, Mr. Mullins, and Mr. Jennison, had given their unanimous consent to this new venture, Joseph J. Corcoran proceeded
to seek and obtain all necessary entitlements from the
City of [2150] Somerville.

App. 46
CMJ needed to obtain several things: First, it
needed approval to subdivide the Cobble Hill lot, therefore legally separating the Cobble Hill Center parcel
from the Cobble Hill Apartments land, and it also
needed a special permit with variances.
It needed a special permit because under the zoning code or zoning ordinance in effect in Somerville,
given the zoning district that this property was in, only
three units of residential housing could be built as a
right. The larger multifamily residential building that
Mr. Joseph J. Corcoran had recommended could be
built, but only if the City granted a special permit after
conducting site plan review.
And, as part of that permit, CMJ was also going to
need several variances. It would need a variance to exceed the existing height limitation in order to be able
to construct the six-story building that it wanted to put
there, and it would need a variance of the per-unit
number of parking spaces that are required under the
zoning ordinance in order to reduce the number of
spaces to something that could reasonably be accommodated on the site without having to incur extra expense of putting parking spaces belowground.
In October of 2012, Joseph J. Corcoran sent a
[2151] substantial portion of the zoning submission
package for the project that had been drafted. He sent
this, at that time, to Ms. Lessin at Mullins Management Company, and Ms. Lessin immediately forwarded
that to Mr. Mullins, to Michael Mullins, and to Dave
Sullivan.

App. 47
The materials that were sent on in October of 2012
made clear that CMJ’s proposal to the City was going
to be for a 159-unit building, with 25 studio apartments, 59 one-bedroom apartments, and 45 two-bedroom apartments. And I may have some of those
numbers wrong. I don’t think the math is right, but it
was a 159-unit building.
The proposal, I find, had been reduced from 167
units to 159 units as a result of Joseph J. Corcoran’s
ongoing communications with the City’s planning department staff regarding what would ultimately be
something that the City could approve. I find this was
not a material change from the scope of the project that
was anticipated when Mr. Mullins gave his consent to
enter into this new venture.
The materials prepared for the City and then
shared with Mr. Mullins in October of 2012 describe
this project in great detail. Mr. Mullins never raised
any objection after seeing those detailed plans, either
to the number of residential units or otherwise.
I find that CMJ did not provide Mr. Mullins with
all [2152] internal memoranda and communications
regarding the Cobble Hill Center project, but I also find
that from December of 2011 on, including throughout
2013, Joseph J. Corcoran prepared regular status reports regarding this project; that Mr. Holmquest forwarded those status reports to Kayla Lessin at Mullins
Management Company in order to keep Mr. Mullins
apprised of the progress of the entitlements process;

App. 48
and that Ms. Lessin, in turn, forwarded those status
reports to Mr. Mullins and to Michael Mullins.
The timing of the zoning approvals from the City
for this project was, essentially, as follows: Joseph J.
Corcoran delayed filing the initial package with the
City for several months at the request of a new alderwoman, who asked CMJ to have a number of public
meetings with the local community before making this
filing.
CMJ’s application for subdivision approval was
filed on February 7th of 2013, and the City granted
subdivision approval on June 20th of 2013.
Once Joseph J. Corcoran knew that the subdivision approval was about to issue, on June 11, 2013, he,
on behalf of CMJ, filed the application for the necessary special permit and variances for this project.
The City granted all necessary zoning approvals,
the special permit with the required variances, on October 16th of 2013. By law, any aggrieved party wishing to challenge [2153] those approvals had 21 days to
file a lawsuit challenging them. That appeal period expired on November 12, 2013, and no appeals or challenges were filed, which meant that the special permit
and variances were final and that CMJ had all the entitlements it needed to go forward with the project.
With the zoning approvals in hand, in December
of 2013, Joseph J. Corcoran prepared a further detailed
status report on the Cobble Hill Center project, and he

App. 49
sent copies on to his father, Joseph E. Corcoran, to Mr.
Jennison, and to Mr. Mullins.
In that December 2013 report, Joseph J. Corcoran
reported that all needed zoning approvals were in
place and that the project was moving into the construction planning phase, with the goal of being able to
start construction by around June of 2014.
He reported that CMJ had spent roughly $1.274
million in predevelopment costs to get through the entitlement phase, that amount being in addition to the
$1.326 million transfer payment to CMJ in 2003 for
the land.
In this December 2013 report, Joseph J. Corcoran
reported that total development costs, excluding the
cost of the land, were currently budgeted at $36.25 million, with the goal of bringing in construction costs below that. This amount was slightly, but not materially,
higher than [2154] the development cost estimate, including the land acquisition cost, of $36.7 million that
Joseph J. Corcoran had communicated to Mr. Mullins
two years earlier at the end of 2011 and had communicated again in connection with the July 2012 quarterly
meeting.
Also as part of this December 2013 report, Joseph
J. Corcoran reported that the firm of Fantini & Gorga
had been hired to place construction and permanent
debt for the project and that Fantini & Gorga had
asked CMJ to retain the firm of CBRE to conduct an
independent market study for the project. Joseph J.
Corcoran attached CBRE’s detailed analysis to that

App. 50
December 2013 report. In it, CBRE concluded that
CMJ should have little difficulty in leasing out all of
the residential units in the building at very favorable
rates.
Also as part of this December 2013 report, Joseph
J. Corcoran provided updated financial pro formas for
the project. Some of those pro formas included a calculation of an internal rate of return or IRR for the project. In calculating an IRR for a commercial real estate
project, one must make assumptions regarding the
project’s annual cash flow and also must make an assumption of future sale of the property or some other
terminal event that would bring those cash flows to an
end. I find that Mr. Mullins and Michael Mullins were
very familiar with such an IRR [2155] calculation and
understood that it must always assume a terminal
event, like a sale.
In addition, I find, based on the evidence in this
case, that potential real estate lenders always wanted
to see, in financial pro formas, a potential exit strategy,
that it was customary in the industry to prepare financial pro formas showing a sale of such a project after
stabilization in a form that could eventually be shared
with potential lenders, and I find that Mr. Mullins and
Michael Mullins understood that, as well.
The IRR calculation in the December 2013 pro
formas was based on assumptions that project construction would be completed in 2016; that the building would be fully leased and, thus, stabilized by the
end of the [sic] 2017; that the construction loan would

App. 51
be replaced with long-term debt in 2017; and that a hypothetical sale of the building would take place at the
end of 2020.
I find that anyone familiar with the development
of multifamily residential real estate would have understood that the 2020 sale in this pro forma was a hypothetical terminal event included for the purpose of
calculating an IRR and for the purpose of modeling an
exit strategy for potential lenders, and that it was not
a binding commitment by CMJ to sell the building in
2020.
As part of this December 2013 report, Joseph J.
[2156] Corcoran also sent the three CMJ principals a
draft of a new LLC agreement for Cobble Hill Center,
LLC, and he noted in his cover memo that this draft
new LLC agreement would assign a 10 percent ownership interest in the project to Joseph J. Corcoran.
The attached draft LLC agreement would reduce
each of the principals’ stakes in the project by 10 percent in order to free up a cumulative 10 percent stake
for Joseph J. Corcoran. Specifically, the draft agreement would have reduced Joseph E. Corcoran’s ownership interest in Cobble Hill Center from 60 percent to
54 percent, would have reduced Mr. Mullins’ ownership
interest from 20 percent to 18 percent, and would have
reduced the ownership interest of Mr. Jennison or an
estate planning trust he created, if Mr. Jennison decided to transfer his ownership interest to that trust,
also from 20 percent to 18 percent.

App. 52
Joseph J. Corcoran had not discussed this proposal
with either Mr. Mullins or with Gary Jennison before
distributing the December 2013 package.
I find this proposal to change the ownership of the
Cobble Hill Center property was something that was
never acted on. Joseph J. Corcoran never received a 10
percent ownership interest in Cobble Hill Center and
CMJ never reduced Mr. Mullins’ 20 percent ownership
interest in that project.
[2157] Mr. Mullins responded to this December
2013 status report initially in a short letter to Joseph
J. Corcoran on January 10, 2014. In that letter, Mr.
Mullins asked for more information about the construction and permanent loan financing strategy for
Cobble Hill Center, for construction cost estimates, for
copies of all local permits for the project, and for certain documentation regarding Cobble Hill Center,
LLC, and its acquisition of the site.
At the end of this January 10 letter, Mr. Mullins
asserted that he had not yet consented to this proposed
new development and said that CMJ should, therefore,
stop spending any money on the project.
I find that Mr. Mullins’ assertion that he had never
consented to this project was incorrect. In fact, at the
July 2012 meeting, Mr. Mullins had given his unconditional assent to the new venture and specifically
agreed that CMJ should incur predevelopment costs to
pursue all necessary entitlements.

App. 53
Joseph J. Corcoran responded to the January 10th
letter on January 21, 2014. He responded in writing. In
that letter, he reminded Mr. Mullins that he had been
kept fully informed about the progress of the Cobble
Hill Center redevelopment. He invited Mr. Mullins to
attend a planned meeting with Fantini & Gorga scheduled for February 5th, 2014, where Mr. Mullins could
learn in detail the [2158] construction and permanent
financing plans.
He reminded Mr. Mullins that the most recent construction cost estimates were included in the December 2013 status report that Mr. Mullins had just
received, and he provided Mr. Mullins with copies of
the Somerville Planning Board’s subdivision approval
and the Board of Appeals’ approval of the special permit with variance for the project, as Mr. Mullins had
requested.
Shortly thereafter, on February 3, 2014, Teresa
Foisy, who works for CJ, sent an e-mail to Joseph E.
Corcoran, to Mr. Jennison, to Mr. Mullins, to Kayla Lessin, and to others at CJ, with a January 2014 status
report by Joseph J. Corcoran regarding the Cobble Hill
Center development project. The status report and the
e-mail noted that the Fantini & Gorga meeting had
been rescheduled to February 12th of 2014. Attached
to the status report was an initial financing memorandum analysis from Fantini & Gorga.
Neither Mr. Mullins, Michael Mullins, or anybody
else from Mullins Management Company attended the
February 12th, 2014, meeting with Fantini & Gorga.

App. 54
Just over a week after the meeting, on February
20th, Mr. Mullins received another e-mail from Teresa
Foisy of CJ with minutes from the February 12 meeting that had taken place with Fantini & Gorga. The
minutes informed [2159] Mr. Mullison – I’m sorry, the
minutes informed Mr. Mullins that the financing strategy agreed upon in the meeting with Fantini & Gorga
was to obtain a construction loan, to finance the construction of the Cobble Hill Center redevelopment, to
replace that construction loan with a permanent loan
when the construction was complete and the building
was stabilized or rented out, and to do so on terms that
would allow for a refinance of the project within three
to five years after stabilization using a HUD 223(f )
loan.
The HUD 223(f ) program was the same program
that CMJ had used to refinance and take equity out of
other projects, so the report was informing Mr. Mullins
that, essentially, the plan was to finance Cobble Hill
Center – the Cobble Hill Center project in the same
manner that CMJ had financed and realized appreciated value on other similar projects in the past.
A few days later, February 26 of 2014, Mr. Mullins
received a further e-mail from Ms. Foisy at CJ. That
e-mail had attached to it a February of 2014 status report for the Cobble Hill Center project that was being
circulated in preparation for an upcoming CMJ partners meeting scheduled for March 5th of 2014.
The February 2014 status report sent to Mr. Mullins included further summary of the February 12th

App. 55
meeting with [2160] Fantini & Gorga, as well as an update regarding financial pro formas for the project, and
that status report reiterated the financing strategy
agreed upon at the Fantini & Gorga meeting, as had
already been reported to Mr. Mullins a few days earlier.
I find that Mr. Mullins knew or should have known
from the two reports regarding the February 12th,
2014, meeting with Fantini & Gorga that the financing
project for the loan was to seek a construction loan that
would be refinanced with a so-called mini-perm loan
for three to five years or so and that that would then
be refinanced through the HUD 223(f ) program thereafter, and that the plan was for CMJ to build, lease,
and hold the Cobble Hill Center Apartments over the
long term, just as CMJ had always done with its residential projects.
In other words, I find that Mr. Mullins knew or
should have known that there was no plan to sell the
property in 2020 and that the sale assumption in the
financial pro formas was made solely for purposes of
calculating an IRR and for showing potential lenders
what the – excuse me, to show potential lenders what
an exit strategy might look like.
On February 28, 2014, Mr. Mullins sent a fairly
long letter to Karen Meyer, who was then CMJ’s president. In that letter, Mr. Mullins asserted that he never
consented [2161] to the Cobble Hill Center project and
said that he did not consent to it at that time. I find
that Mr. Mullins was not acting in good faith when he
sent this letter.

App. 56
In the letter, Mr. Mullins asserted that he had
never consented to the project. I find that assertion
was false, incorrect. In fact, Mr. Mullins had expressly
consented to CMJ pursuing this new venture at the
July 17, 2012, meeting, after having had the chance to
review and ask questions about the feasibility analysis
prepared by Joseph J. Corcoran and about a market
rent study.
In the February 28th letter, Mr. Mullins also asserted that he had never been provided with “any detailed information concerning the new project” and
that he had received no information at all about the
project between the July 17, 2012, meeting and Mr.
Mullins’ receipt of the December 2013 status report by
Joseph J. Corcoran on December 24, 2013. Those assertions were also not true.
In fact, I find that Joseph J. Corcoran prepared
regular status reports about the project that were forwarded to Mr. Mullins’ staff at Mullins Management
Company throughout this period, and I find that Joseph J. Corcoran had also sent Mr. Mullins’ staff a copy
of detailed project plans prepared for the special permit applications, and he did so in October of 2012.
In his February 28th letter, Mr. Mullins asserted
that [2162] the last time the Cobble Hill project had
been discussed in any meeting with him or his staff
was in July of 2012. That assertion was also not true.
Notes that Mullins Management Company staff themselves kept regarding their quarterly meetings with
CMJ and CJ personnel confirmed that at the very

App. 57
least, the Cobble Hill Center project was discussed during meetings on February 13 of 2013, June 5th of 2013,
and November 13th of 2013.
At the June 5th, 2013, meeting, Mr. Mullins was
reminded that CMJ was seeking zoning approval, including variances for parking and height; that Joseph
J. Corcoran was working with Fantini & Gorga on permanent financing plans that might include financing
through HUD’s 221(d)(4) program or conventional financing; and that project construction was expected to
start by January of 2014.
I credit Mr. Mullins’ testimony that he attended
this June 5, 2013, meeting and that, at that time, he
continued to support and did not object to moving forward with the new venture at Cobble Hill Center. I find
Mr. Mullins did not object at that meeting to CMJ
working with Fantini & Gorga on financing and did not
object to the plans to start construction of the project
in early 2014.
I also find that at this June of 2013 meeting, Mr.
Mullins did not assert that he had never consented to
the project or that any further consent to the project
was [2163] required of him.
As best I can tell, Mr. Mullins did not attend the
November 13, 2013, quarterly meeting, but Mullins
Management Company staff did attend and they were
informed at the meeting that all zoning approvals had
been obtained for the Cobble Hill project and that the
zoning appeal period had ended, with no appeal being
taken.

App. 58
They were also informed at the meeting that CMJ
was hoping to begin construction by March or April of
2014. They were reminded of Joseph J. Corcoran’s status reports for the project that had been provided
throughout 2013.
I find that no member of Mullins Management
Company staff asserted at the November of 2013 quarterly meeting that Mr. Mullins had never consented to
the project or that any further consent by him was required.
Turning back to Mr. Mullins’ letter of February 28,
2014, in that letter, Mr. Mullins also asserted that CMJ
could not sell, liquidate, or refinance any of its assets
without unanimous consent of all three principals.
That, too, was incorrect.
In fact, as I’ve already found, the 1987 agreement
only required unanimous consent to sell, pledge, or
transfer a major portion of CMJ’s assets. CMJ board
could act by two-thirds vote to sell or refinance a single
project, including Cobble Hill Center.
[2164] Mr. Mullins asserted in his February 28th
letter that the Cobble Hill Center redevelopment project was much too risky, that risks in the financial markets, in the residential real estate market in the area,
and in the economy as a whole made it far too risky to
go forward with the project.
Mr. Mullins also said in his letter that the assumption in the December 2013 pro formas that the building
could be sold in 2020 was, itself, too risky, because

App. 59
interest rates and those cap rates were likely to be
higher in a few years and that could “lead to a large
drop in value.”
I find that these assertions of risk were not made
in good faith. We can see that from the fact that in coming months, as I’ll explain in further findings, Mr. Mullins proposed going forward with the project on terms
dictated by him, which would not have made any sense
if Mr. Mullins truly believed that interest rate risks,
financing risks, and market risks outweighed the potential reward from proceeding with the project.
Mr. Mullins’ assertion that it was too risky to finance the project based upon an assumption that the
building would be sold in 2020 was not made in good
faith. I find that Mr. Mullins and Michael Mullins both
understood that there was no such plan to sell the
building and that the 2020 sale assumption was made
solely for purposes of [2165] calculating an IRR and
presenting pro formas in a format that would be familiar to potential lenders.
Also in the February 28, 2014, letter, Mr. Mullins
objected to a 10 percent ownership interest in Cobble
Hill Center being transferred to Joseph J. Corcoran. He
most certainly was entitled to object to and withhold
his consent from any such transfer, because, as I’ve explained, the 1987 agreement specified that Mr. Mullins
would have a 20 percent ownership interest, and he
had no obligation to give 2 percentage points of his
ownership share away to Joseph J. Corcoran. But I find
that Mr. Mullins’ objection to transferring any

App. 60
ownership interest to Joseph J. Corcoran was not a
good-faith basis for trying to withdraw his prior consent to the project.
On March 20th of 2014, Michael Corcoran, another son of Joseph E. Corcoran, sent a letter to Mr.
Mullins in which Corcoran Jennison Companies offered to purchase Mr. Mullins’ 20 percent interest in
Cobble Hill Center, LLC, for 1.488 million. The offer
letter explained that the offer was based upon an appraised value of the property that had been prepared
in September of 2012 for Mullins Management Company by an appraiser called Bonz and Company, plus a
5 percent premium, plus a return of Mr. Mullins’ share
of all development costs incurred to date for the project.
[2166] Bonz and Company had appraised the project for purposes of estate planning for Mr. Mullins at
$5.76 million. I understand that Michael – I’m sorry. I
find that Michael Corcoran understood that this offer
was a low-end offer and he didn’t expect Mr. Mullins
would accept an offer for $1.488 million. Joseph J. Corcoran had just told Mr. Corcoran – Joseph E. Corcoran,
had told Mr. Mullins, had told Mr. Jennison in the December of 2013 report that the Cobble Hill Center, now
that it was fully entitled, was probably worth around
$12 million.
I find that in the March 20th letter, Michael Corcoran was trying to get a sales negotiation started, but
no such negotiation went forward because Mr. Mullins

App. 61
chose never to make any counteroffer to sell his interest in the property.
Instead, Mr. Mullins, a few days later on March 28,
2004 [sic], responded in a letter that he sent to Joseph
E. Corcoran and to Gary Jennison. In that letter, Mr.
Mullins proposed moving forward with the Cobble Hill
Center project as a so-called presale transaction, in
which CMJ would contract before starting construction to sell the property in the future to a third-party
investor at some future date.
I find that agreeing to such a presale transaction
would mean that CMJ would still shoulder risks that
the construction might not be completed, that the project might [2167] not be leased up, and it would sell off
the future upside potential of the project to a thirdparty investor.
I find that in the – at that time, in the Boston area,
there was a very limited market for such a presale
transaction, because most institutional real estate investors or real estate investment trusts were interested only in investing in property that had been built
and stabilized and not in committing to buy a property
that had neither been built yet, nor leased out.
I also find that income to the three CMJ principals
on such a presale transaction would be taxed as ordinary income under the Internal Revenue Code, thus
taxed at a much higher rate than any gain realized
from a build-and-hold strategy, because those gains
were taxed as capital gains.

App. 62
I find that Mr. Mullins’ March 28, 2014, letter
helped show that his February 28, 2014, assertion that
the project was too risky was not made in good faith. If
risks in the financial markets, the residential real estate market, and the economy, as a whole, made it far
too risky to go forward with the project, as Mr. Mullins
had asserted just one month earlier, then no thirdparty investor would be willing to agree to such a presale transaction on terms that would allow CMJ to
share in any meaningful part of profits if the project
were built and commercially [2168] successful.
CMJ, through several people, repeatedly asked Mr.
Mullins and Michael Mullins to identify similar presale transactions in the Boston area and to provide information about any such transactions regarding the
material terms. Although Michael Mullins identified
one or two presale transactions, neither he, nor his father, was ever able to provide information to CMJ regarding material terms of other presale transactions
on similar projects.
Over the next several months, during the first part
of 2014, CMJ moved forward with evicting retail tenants from the retail building that was on the Cobble
Hill Center site so that construction could begin. Mr.
Mullins objected to that.
I find that the leases to those retail tenants were
only generating net income of about $75,000 per year
and that Mr. Mullins’ share of that was 20 percent or
$15,000 per year.

App. 63
In July of 2014, Mr. Mullins filed this lawsuit
against Mr. Corcoran and Mr. Jennison to stop them
from going forward with the Cobble Hill Center project. Mr. Mullins knew when he did so that no one
would finance the project so long as one principal is suing the other two.
Indeed, that had been CMJ’s experience quite recently in connection with the refinancing of the Quaker
Meadows [2169] project. Mr. Corcoran and Mr. Jennison had wanted to refinance the project through a
HUD program. Because doing so did not involve pledging of a major portion of CMJ’s assets, unanimous consent was not required, but Mr. Mullins nonetheless
objected, interfered with the refinancing of Quaker
Meadows by contacting HUD, telling them there was
not unanimous consent to refinance the deal.
As a result, HUD was unwilling to close and the
transaction did not go forward. Mr. Mullins, by voicing
his opposition, was able to kill, at least at that time,
that refinancing.
I find the same was true in July of 2014, that Mr.
Mullins intended, by filing suit, to stop the Cobble Hill
Center project from going forward and that he succeeded in doing that.
A few months later, on September 13th of 2014,
Michael Corcoran informed Mr. Mullins by e-mail that
he had received two offers to purchase the Cobble Hill
Center land. One offer was for $14.1 million from an
entity known as JPI, and a second offer for $13.5

App. 64
million was made by Joseph J. Corcoran and his cousin.
Mr. Mullins never responded to that e-mail.
Ten days later, Michael Corcoran received a second offer from JPI. This was an offer, again, to pay
$14.1 million for the property and entitlements to
build [2170] the current project, but also to pay an additional $10 million if the zoning code were ever
changed to allow for construction of a Phase II second
residential apartment building at the site.
Michael Corcoran never told Mr. Mullins about
this second JPI offer. That was a breach of the 1987
agreement. Nonetheless, I find that Michael Corcoran’s
failure to tell Mr. Mullins about the second JPI offer
was not material for two reasons:
First, the zoning code has never been changed in
Somerville to allow the construction of a second residential apartment building at the site; and, second, I
find it’s highly unlikely that the zoning code will be
changed in such a manner in the foreseeable future. To
the contrary, the mayor of Somerville recently proposed a zoning code change that would, going forward,
bar any new residential use of the site.
In March of 2015, Mr. Mullins wanted CMJ to commission an independent financial analysis of the Cobble Hill Center project, including the feasibility of
doing some kind of presale transaction, and give a recommendation as to how to proceed. The CMJ board
agreed to pay the cost of that study and Mullins Management Company hired Institutional Property Advisors, or IPA, to do the study.

App. 65
IPA completed the study and delivered its report
in the [2171] middle of July of 2015. IPA verified that
market rates – market rental rates for residential
apartment units in that area were increasing and verified that the Cobble Hill Center project approved by
the City of Somerville was likely to be very successful
and very profitable.
IPA estimated that residential apartment rental
rates would increase for – 3-1/2 percent per year for at
least the next ten years in that area.
IPA estimated the value of the project of the Cobble Hill Center property under three different scenarios:
First, IPA estimated that if CMJ built and held the
project, the project could be built by October of 2016,
stabilized by April of 2018, meaning by then 95 percent
of the residential units would be leased out and there
would be 90 percent occupancy of the retail space in
the building, and IPA estimated that at that point in
time, the project would be worth somewhere in the
range of $65.75 million to $70.6 million, and, thus, be
worth well in excess of the cost of developing the project.
The second scenario that IPA considered was to estimate that construction could again be completed by
October of 2016, that 60 percent occupancy of the residential and retail space could be achieved within one
year, by October of 2017; and IPA estimated that under
those circumstances, at 60 percent occupancy, in October of 2017, CMJ could sell [2172] the property to some

App. 66
third-party investor for between 60.3 million and
$64.25 million. IPA referred to this as its “as-built scenario.”
And, third, IPA estimated that the undeveloped
land with the entitlements still on it could be sold as of
September of 2015 for $15 million.
Shortly after IPA released its report, on July 21,
2015, Mr. Mullins sent another letter to Mr. Corcoran
and Mr. Jennison. In that letter, Mr. Mullins said he
was “prepared to consent in principle” to CMJ proceeding with the Cobble Hill Center development project
under IPA’s as-built scenario; in other words, build the
project, start leasing it up, and commit to selling it once
60 percent occupancy was achieved, probably around
October of 2017.
I find this shows that Mr. Mullins’ prior assertion
that it would be far too risky for CMJ to undertake the
project with any plan to sell it within a few years was
not made in good faith.
In September of 2015, Mr. Corcoran and Mr. Jennison essentially responded to the July 2015 letter by
offering to pay out – to buy out Mr. Mullins’ share of
the project, essentially on the terms that Mr. Mullins
himself had proposed in his July 2015 letter. Specifically, Mr. Corcoran and Mr. Jennison offered to enter
into a contract under which they would purchase Mr.
Mullins’ share [2173] of the Cobble Hill Center redevelopment once 60 percent occupancy was achieved,
and they would do so based on an independent

App. 67
appraisal to determine fair market value of the property at that time.
Mr. Mullins rejected that proposal. I find this,
again, shows he was not acting in good faith. Mr. Mullins had already said he was willing to consent to the
project subject to the condition that it be sold at 60 percent occupancy at market rates. He was only willing to
do that if the buyer was a third party, and he refused
to accept, essentially, the exact same payment terms if
the buyers were Mr. Corcoran and Mr. Jennison, rather
than a third party.
Now, in the meantime, on or about May 21, 2015,
Joseph J. Corcoran sent a memo to the three CMJ principals, Mr. Corcoran, his father, Mr. Mullins, and Mr.
Jennison, informing them that the special permit and
variances for Cobble Hill Center were going to lapse
come July 20th of 2015. In this memo, Joseph J. Corcoran explained that CMJ would be able to, he believed,
obtain a six-month extension, but no more, and that
CMJ would have to begin construction before the special permit and variance lapsed or it would lose those
entitlements.
Joseph J. Corcoran was right about the extension.
He succeeded in getting a six-month extension of the
special [2174] permit and variances, through January
of 2016, but the special permit and variances lapsed at
that time because Mr. Mullins remained steadfast in
his refusal to allow the project to move forward on the
terms that he had agreed to in July of 2012.

App. 68
I find that if Mr. Mullins had not tried to withdraw
his consent to the project and had not then brought a
lawsuit to stop the project, that, in fact, CMJ would
have been able to construct the new Cobble Hill Center
apartment building as approved by the City, and I find
that CMJ would have been able to stabilize it, achieving at least 95 percent residential occupancy, by October of 2016.
In 2016, Mullins Management Company sent to
CMJ a few conceptual redevelopment studies for not
just the Cobble Hill Center site, but also the Cobble
Hill Apartments site that was adjacent to it. These
studies were prepared one by Peter Quinn Architects
and the other by DPZ Partners. They both sketched out
possible redevelopment of the combined Cobble Hill
Apartments and Cobble Hill Center sites.
The projects, as sketched out, would have been far
larger and far riskier than the Cobble Hill Center approved by the City in the fall of 2013. I find that neither
of those projects could be built under the existing City
of Somerville zoning ordinance.
[2175] So I’m now going to turn to the claims and
counterclaims in this case. And as I explain my rulings
on each of those claims, I’ll be making a few more findings of fact.
I’m going to start with the claims asserted by Mr.
Mullins against Mr. Corcoran and Mr. Jennison.
I do find that Mr. Corcoran and Mr. Jennison
breached their contractual obligation to provide Mr.

App. 69
Mullins with “all reports prepared for the management” of CMJ and with all material information regarding CMJ’s projects and businesses, but I find that
this failure to provide Mr. Mullins with all the reports
and information he was entitled to did not cause him
to suffer any compensable injury and I also find that
Mr. Mullins was not deprived of any material information that he needed in order to be able to decide, as
of July of 2012, whether to consent to the redevelopment of the Cobble Hill Center site, as recommended
at that time by Joseph J. Corcoran.
With respect to the rest of his claims, I find that
Mr. Mullins has not met his burden of proving that
Joseph E. Corcoran or Gary Jennison breached their
contractual or their fiduciary duties by proceeding
with the Cobble Hill Center project without Mr. Mullins’ consent.
To the contrary, as I’ve already explained, I find
that [2176] Mr. Mullins gave informed consent in July
of 2012 to enter into a new venture in redeveloping the
Cobble Hill Center site by seeking entitlements for
and, if approved, building a roughly 160-unit, six-story
apartment building in place of the existing one-story
retail building.
I find that Mr. Mullins had no contractual right to
withdraw his consent to this new venture, and, therefore, I find that Mr. Corcoran and Mr. Jennison were
proceeding with Mr. Mullins’ informed consent and not
proceeding without it.

App. 70
Turning to the counterclaims asserted by Mr. Corcoran and Mr. Jennison against Mr. Mullins, having
given his consent to the proposed new venture at Cobble Hill Center in July of 2012, I find that Mr. Mullins
breached his contractual duties and his fiduciary duties by trying to withdraw that consent in 2014 and
by deliberately interfering with the efforts of CMJ to
finance and construct the project as approved by Mr.
Mullins in July of 2012 and as approved by the City in
the fall of 2013.
I find that Mr. Mullins breached his fiduciary duty
to Mr. Corcoran and Mr. Jennison by failing to promote
the best interests of CMJ in connection with the Cobble Hill Center site by acting to promote his own selfinterest at the expense of CMJ and by not acting in
good faith with respect to the Cobble Hill Center project.
[2177] I find that Mr. Mullins similarly breached
his contractual duty under the parties’ 1987 agreement by failing to act in scrupulous good faith according to CMJ’s good established business practices and
by frustrating and impeding the business activities
and prospects of CMJ with respect to the Cobble Hill
Center project.
As I ruled before trial in ruling on a motion in
limine, under these circumstances, the general measure of compensatory damages available to Mr. Corcoran and Mr. Jennison is the same for their breach of
contract theory as for their breach of fiduciary duty
theory.

App. 71
Under either theory, a prevailing claimant is entitled to be put in the position they would have been in
if there had been no breach of duty. See, for example,
Mailman’s Steam Carpet Cleaning Corp. v. Lizotte, 415
Mass. 865, 869 (1993). That was a breach of contract
case. And see also Berish v. Bornstein or Bornstein
[pronounced differently], 437 Mass. 242, 270 (2002).
That was a breach of fiduciary duty case.
Under Massachusetts law, lost profits or lost potential capital gain is an appropriate measure of damages either for breach of contract or breach of fiduciary
duty. See, for example, Situation Management Systems, Inc. v. Malouf, Inc., 430 Mass. 875, 880 (2000) –
that’s a breach of contract case – and also O’Brien v.
Pearson, 449 Mass. [2178] 377, 387 (2007).
So under circumstances like this, the proper measure of damages is lost net profits after subtracting the
expenses that would have been incurred to pursue the
lost business opportunity. See, for example, Brewster
Wallcovering Company v. Blue Mountain Wallcoverings, Inc., 68 Mass. App. Ct. 582, 610 and Note 61
(2007).
The Massachusetts Appellate Courts have explained that a party seeking to be compensated for a
lost business opportunity is “not required to prove its
lost profits with mathematical precision. Under our
cases, an element of uncertainty is permitted in calculating damages and an award of damages can stand on
less than substantial evidence. This is particularly the
case in business torts, where the critical focus is on the

App. 72
wrongfulness of the defendant’s conduct.” That’s from
Herbert A. Sullivan, Inc. v. Utica Mutual Insurance
Company, 43 Mass. 387, 413 (2003).
I am not convinced by Mr. Mullins’ argument that
when the 1987 agreement was signed, it was not foreseeable that a party to the contract could suffer lost
profits if one of the principals wrongfully prevented
CMJ from entering into a new real estate venture. I
find to the contrary, that when the three parties entered into their 1987 agreement, it was, in fact, foreseeable that if one of the three [2179] principals
wrongfully prevented CMJ from undertaking a new
real estate venture, then CMJ may suffer lost profits
or lost capital gain as a result.
That was foreseeable because the general experience of CMJ had been that it earned substantial profits, and its principals were able to use financings to –
sorry, use refinancings to withdraw substantial equity
gains on roughly 25 different multifamily residential
apartment building projects.
Mr. Mullins argues that redevelopment of the Cobble Hill Center site couldn’t have been foreseeable in
1987 because the entity Cobble Hill Center, LLC, was
not formed until 2003.
I find that argument is without merit. I find that,
to the contrary, the possibility of redeveloping Cobble
Hill Center was foreseeable to the parties in 1987.
CMJ had developed the Cobble Hill Apartments and
the strip mall on the Cobble Hill Center site just five
years earlier, in 1982.

App. 73
CMJ principals were all experienced real estate
developers and understood opportunities for undertaking further development on a site where some buildings had already been built, and they agreed in 1987
that CMJ would retain ownership of the Cobble Hill
property. I find they understood, in doing so, that there
was ample room on the [2180] western part of the site
to develop additional housing, and it was, therefore,
foreseeable at that time that a breach of contract that
interfered with redevelopment of the Cobble Hill Center site could cause CMJ to lose profits from capital
gains.
So I need to make findings regarding what amount
of compensation, what amount of damages, Mr. Corcoran and Mr. Jennison are entitled to collect in this case
on their counterclaims.
I find that if Mr. Mullins had not breached his contractual and fiduciary duties, that the Cobble Hill Center project, as approved by the City in October of 2013,
could have been built by late 2015 and would have
been stabilized – in other words, rented out – by October of 2016.
I find that at that point in time, the stabilized project would have been worth more than $75 million and
that the equivalent economic value as of the date the
counterclaims were first asserted in this case in 2014
would be $75 million as the date – as the value of the
project if it had been built and stabilized, as it could
have been.

App. 74
Now, in awarding damages, I need to subtract a
couple of things from that.
First, I need to subtract the likely cost to complete
[2181] the project. And as I was trying to come up with
an appropriate number for this, I credited the testimony by the defendants’ expert witness, Mr. Simon
Butler, that construction costs for this project were increasing sharply between 2013 and 2016, at some
points in time by as much as 1 percentage point a
month, and, therefore, that construction cost – I, therefore, find that construction cost to complete the project
would have been materially higher than Joseph J. Corcoran was estimating as of December of 2013.
I find that it would have cost CMJ something in
excess of $45 million to complete construction of the
project and that the economic value of that cost, as of
the date the counterclaims were first asserted in 2014,
would be $45 million.
So the difference between those two, the $75 million project value and the $45 million additional development costs, is essentially the lost net profits suffered
by CMJ of $30 million, but I also need to subtract out,
as the defendants/the plaintiffs-in-counterclaim, agreed,
the residual value of the land itself, because CMJ still
owns that.
Now, the parties disagree. They presented contrasting argument/evidence as to whether I should
value the land assuming that it had or – entitlements
on it or that the [2182] same entitlements could have
been obtained, but I don’t need to resolve that directly

App. 75
because I find that Mr. Mullins has proved that Mr.
Corcoran and Mr. Jennison could have mitigated some
of their damages by selling the property in the middle
of 2015, when it was still fully entitled and when a purchaser could have begun construction before lapse of
the special permit and the variances, and I credit IPA’s
opinion that the undeveloped entitled land could have
been sold at that time for $15 million.
So the bottom line is I find that CMJ lost $15 million of economic value due to Mr. Mullins’ breach of
contract and breach of fiduciary duty. That’s the $75
million value of the project if it had been built, minus
the $45 million in additional cost to complete the project, minus the $15 million value of the undeveloped
entitled land if CMJ had mitigated its damages, meaning that the total loss to the owner of the project, CMJ
and Cobble Hill, LLP, is $15 million.
I find that Mr. Corcoran, Joseph E. Corcoran, is entitled to recover 60 percent of that amount, or $9 million, and that Gary Jennison is entitled to recover 20
percent of that amount, or $3 million.
Turning just a little bit more to the issue of mitigation of damages, since I found that Mr. Mullins
breached his contractual and fiduciary obligations, the
[2183] burden is on Mr. Mullins to prove that Mr. Corcoran and Mr. Jennison failed to make reasonable efforts to mitigate their damages. See, for example,
Kiribati Seafood Company, LLC, versus Dechert LLP,
478 Mass. 111, 123 (2017).

App. 76
As I just explained, I do find that Mr. Mullins has
proved that Mr. Corcoran and Mr. Jennison could have
mitigated their damages, to some extent, by selling the
Cobble Hill Center property in mid 2015, and that they
could have done so at a price of $15 million.
I also find that Mr. Mullins has not shown that Mr.
Corcoran and Mr. Jennison could have, but failed to,
take any other reasonable efforts to mitigate damages
caused by Mr. Mullins’ breaches.
And the assertion that CMJ could have mitigated
damages by entering into a presale transaction with
Mr. Mullins’ consent is, in my view, completely speculative. There’s no credible evidence that CMJ could
have done so in a manner that would have mitigated
damages at all.
And I find Mr. Mullins has not shown that either
of the large-scale redevelopment projects outlined in
2016 by Peter Quinn Architects or DPZ Partners was
feasible. Neither of those projects could be built under
the current zoning code, and I find there’s no reasonable prospect that CMJ could obtain rezoning that
would allow projects of that scale on the combined Cobble Hill Apartments and Cobble [2184] Hill Center
sites.
So just to recap, the bottom line, judgment will enter in favor of the two defendants with respect to the
claims asserted against them by Mr. Mullins and in
their favor, as well, on their counterclaims against Mr.
Mullins, and judgment will provide that Mr. Corcoran,
Joseph E. Corcoran, may recover $9.0 million, plus

App. 77
prejudgment interest and any taxable costs that are
demonstrated, and Mr. Jennison may recover $3.0 million, plus prejudgment interest and any taxable costs.
That concludes my findings and rulings. Thank
you all.
COURT OFFICER:

Court. All rise.

You may be seated.
(Proceedings adjourned at 11:39 a.m.)
[2185] CERTIFICATE
COMMONWEALTH OF MASSACHUSETTS
SUFFOLK, SS.
I, Janet M. Sambataro, a Registered Merit Reporter and a Notary Public within and for the Commonwealth of Massachusetts do hereby certify:
THAT the record of the proceedings contained
herein is a true and accurate record of my stenotype
notes taken in the foregoing matter, to the best of my
knowledge, skill and ability.
I further certify that I am not related to any parties to this action by blood or marriage; and that I am
in no way interested in the outcome of this matter.

App. 78
IN WITNESS WHEREOF, I have hereunto set my
hand this 14th day of June, 2018.
JANET M. SAMBATARO
Notary Public
My Commission Expires:
July 16, 2021

App. 79
482 Mass. 1106
(This disposition is referenced
in the North Eastern Reporter.)
Supreme Judicial Court of Massachusetts.
Joseph R. MULLINS
v.
Joseph E. CORCORAN & another
June 27, 2019
Reported below: 95 Mass. App. Ct. 1107 (2019).
Opinion
Appellate review denied.
Justice Kafker did not participate.

App. 80
U.S.C.A. Const. Amend. I-Full text
Amendment I. Establishment of Religion;
Free Exercise of Religion; Freedom of Speech and
the Press; Peaceful Assembly; Petition for
Redress of Grievances
Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble,
and to petition the Government for a redress of grievances.

App. 81
COMMONWEALTH OF MASSACHUSETTS
SUFFOLK, SS.

SUPERIOR COURT

)
)
Plaintiff,
)
v.
) C. A. NO. SUCV2014-02302
JOSEPH E. CORCORAN )
and GARY A. JENNISON, )
)
Defendants.
)
JOSEPH R. MULLINS,

DEFENDANTS’ POST-TRIAL PROPOSED
FINDINGS AND RULINGS
*

*

*

Mullins Improperly Caused the CHC Project to
Stop
27. In July 2014, Mullins took steps that caused
the CHC project to stop. Mullins told Fantini and
Gorga that Corcoran and Jennison were proceeding to
develop CHC without Mullins’ “required consent.” TR.
EX. 231. Mullins knew that no lender would lend into
a project that was the subject of a partnership dispute.
TT 808 (Mullins). At that point, seeking financing
for CHC was futile because of Mullins’ interference.
TT 1074, 1109 (M. Corcoran); TT 262-63 (Jennison),
*

*

*

App. 82
COMMONWEALTH OF MASSACHUSETTS
Suffolk County

Superior Court

JOSEPH R. MULLINS,
Plaintiff,
C.A. No. SUCV20142302-BLS2

vs.
JOSEPH E. CORCORAN
and GARY A. JENNISON,
Defendants.

BENCH TRIAL DAY 4
BEFORE:

The Hon. Kenneth W. Salinger
Friday, May 18, 2018
9:04 a.m.

Held At:

Suffolk Superior Court
3 Pemberton Square, Room 1017
Boston, Massachusetts

Reporter: Janet M. Sambataro, RMR, CRR, CLR
fab@fabreporters.com www.fabreporters.com
Farmer Arsenault Brock LLC
Boston, Massachusetts
617-728-4404
*

*

*

[565] Q. All right. want to direct your attention
to December 24, 2013, Christmas Eve.
Did you receive a package –
A.

Yes, I did.

App. 83
Q.

– of information?

A. Yes: I did. I got a special-delivery package, return receipt requested, and it was a development proposal for Cobble Hill.
[566] Q. And what did you do when you received
that package?
A. Well, I gave it to my son and Kayla Lessin. I
asked them to look at it and I read it, and we responded, I think, with a letter in January –
Q.

Okay.

A.

– asking for more information.

Q. And before we get to that January letter,
please tell the Court who Michael Mullins is, your son.
A.

Michael Mullins is my son, and he works with

me.
*

*

*

App. 84
COMMONWEALTH OF MASSACHUSETTS
Suffolk County

Superior Court

JOSEPH R. MULLINS,
Plaintiff,
C.A. No. SUCV20142302-BLS2

vs.
JOSEPH E. CORCORAN
and GARY A. JENNISON,
Defendants.

BENCH TRIAL DAY 11
BEFORE:

The Hon. Kenneth W. Salinger
Wednesday, May 30, 2018
9:01 a.m.

Held At:

Suffolk Superior Court
3 Pemberton Square, Room 1017
Boston, Massachusetts

Reporter: Janet M. Sambataro, RMR, CRR, CLR
fab@fabreporters.com www.fabreporters.com
Farmer Arsenault Brock LLC
Boston, Massachusetts
617-728-4404
*

*

*

[1782] I agree with Mr. Mullins’ argument through
counsel that unanimous consent of all three of the
principals at CMJ would have been needed to make
such a change in ownership, at least if it was going to
affect Mr. Mullins’ ownership share. But there’s no

App. 85
breach of contract and no breach of fiduciary duty from
proposing this.
With respect to Mr. Donnelly’s arguments as to the
counterclaims, to the extent the counterclaims are saying that Mr. Mullins had some sort of duty to go along
with that, that’s an issue for another day. But I am
comfortable in ruling that the assertion of counterclaims in a lawsuit cannot, in and of itself, give rise to
legal liability for breach of contract or breach of fiduciary duty, because asserting counterclaims is protected
under Massachusetts common law by what’s known as
the litigation privilege.
*

*

*

App. 86
COMMONWEALTH OF MASSACHUSETTS
Suffolk County

Superior Court

JOSEPH R. MULLINS,
Plaintiff,
C.A. No. SUCV20142302-BLS2

vs.
JOSEPH E. CORCORAN
and GARY A. JENNISON,
Defendants.

BENCH TRIAL DAY 12
BEFORE:

The Hon. Kenneth W. Salinger
Thursday, May 31, 2018
9:01 a.m.

Held At:

Suffolk Superior Court
3 Pemberton Square, Room 1017
Boston, Massachusetts

Reporter: Janet M. Sambataro, RMR, CRR, CLR
fab@fabreporters.com www.fabreporters.com
Farmer Arsenault Brock LLC
Boston, Massachusetts
617-728-4404
*

*

*

EXHIBITS
Number
Exhibit 347
*

Page
1990
*

*

App. 87
COMMONWEALTH OF MASSACHUSETTS
Suffolk County

Superior Court

JOSEPH R. MULLINS,
Plaintiff,
C.A. No. SUCV20142302-BLS2

vs.
JOSEPH E. CORCORAN
and GARY A. JENNISON,
Defendants.

BENCH TRIAL DAY 13
BEFORE:

The Hon. Kenneth W. Salinger
Friday, June 1, 2018
9:00 a.m.

Held At:

Suffolk Superior Court
3 Pemberton Square, Room 1017
Boston, Massachusetts

Reporter: Janet M. Sambataro, RMR, CRR, CLR
fab@fabreporters.com www.fabreporters.com
Farmer Arsenault Brock LLC
Boston, Massachusetts
617-728-4404
*

*

*

[2058] In sum, Mullins had no right to obstruct the
Cobble Hill Center development in 2014. He, therefore,
breached the ’87 agreement and his fiduciary duties by
reneging on his consent and taking steps to stop the
project, including by telling Fantini & Gorga that Corcoran and Jennison were proceeding to develop Cobble

App. 88
Hill Center without his required consent, knowing that
no lender was going to lend into a partnership dispute.
[2059] As Michael Corcoran testified, it was futile
to try to get financing when Mr. Mullins would notify
lenders that he wasn’t on board with it, as he had done
in this same time frame by notifying HUD in connection with CMJ’s attempt to refinance Quaker Meadows.
And as Gary Jennison testified, he knew when
Mullins said he did not consent, the practical effect
was that financing would be futile because Mullins
would not sign documents a lender would require.
*

*

*

App. 89
COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
-----------------------------------------------------------------------

No. 2018-P-1163
-----------------------------------------------------------------------

JOSEPH R. MULLINS,
Plaintiff-Appellant,
v.
JOSEPH E. CORCORAN AND GARY A. JENNISON,
Defendants-Appellees.
-----------------------------------------------------------------------

ON APPEAL FROM A JUDGMENT OF THE
SUPERIOR COURT FOR SUFFOLK COUNTY
-----------------------------------------------------------------------

BRIEF FOR PLAINTIFF-APPELLANT
JOSEPH R. MULLINS
-----------------------------------------------------------------------

T. Christopher Donnelly
(BBO No. 129930)
DONNELLY, CONROY
& GELHAAR, LLP
260 Franklin Street
Suite 1600
Boston, MA 02110
(617) 720-2880
tcd@dcglaw.com

September 24, 2018

Mark C. Fleming
(BBO #639358)
Felicia H. Ellsworth
(BBO #665232)
WILMER CUTLER
PICKERING HALE
AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000
mark.fleming@wilmerhale.com
felicia.ellsworth@wilmerhale.com
Attorneys for PlaintiffAppellant Joseph R. Mullins

App. 90
*

*

*

B. Mr. Mullins Also Had Legitimate Reasons
To File This Action
The Superior Court also ruled that filing this lawsuit was an act of bad faith by Mr. Mullins. A4/562 (Tr.
2176); A4/560 (Tr. 2169). Once again, that cannot be
squared with the Superior Court’s own ruling as a matter of law that Mr. Mullins “most certainly was entitled
to object to and withhold his consent from” Defendants’
attempt to reduce his ownership share, a term presented in the December 2013 Proposal and never repudiated by Defendants. A4/559 (Tr. 2165); A4/516 (Tr.
2001) (granting directed verdict for Mr. Mullins on this
point in connection with Defendants’ counterclaims).
The Superior Court’s ultimate finding of ambiguity
was also necessarily a ruling that Mr. Mullins based
his suit on a reasonable interpretation of the 1987
Agreement. See supra pp. 37-38. And the Superior
Court never found that Mr. Mullins’s suit was vexatious or frivolous. Compare Corcoran, Mullins, Jennison, Inc., 67 Mass. App. Ct. 1117, at *4 (affirming
finding that Messrs. Corcoran and Jennison breached
their duty by pursuing a declaratory judgment action
against Mr. Mullins that served no legitimate corporate purpose).
The Superior Court again did not apply the Wilkes
standard here; had it done so, it would necessarily have
found that there was no “less harmful” course available
to Mr. Mullins. Other efforts had proven insufficient.
Mr. Mullins repeatedly tried to raise his concerns, to
no avail. See supra pp. 13-17 (summarizing Mr.

App. 91
Mullins’s correspondence attempting to engage Defendants); A4/258 (Tr. 994-995) (Kelly: Mr. Mullins expressed “reasonable” assessment of project’s risks in
February 28, 2014 letter); A4/330 (Tr. 1272) (Baranski:
the letter expressed “fair and reasonable concerns
about the project”).
None of Mr. Mullins’s attempts sparked a meaningful discussion about his concerns. See, e.g., A4/153
(Tr. 584) (Mr. Mullins: no board of director meeting
held in response to March 28, 2014 proposal); A4/379
(Tr. 1467) (McReynolds, assistant project director at
CJ, testifying that he understood from Joseph J. Corcoran that he was to “ignore Mullins”). He repeatedly
sought face-to-face and other meetings with his fellow
owners, and they steadfastly declined, insisting instead on their impermissible proposed transfer of onetenth of Mr. Mullins’s ownership share to Joseph J.
Corcoran and accusing him of bad faith for resisting.
A12/121.21
21

The Superior Court cited status reports on the Cobble Hill
Center LLC project and minutes from meetings with a mortgage
broker regarding essentially the same financing terms Mr. Mullins reasonably believed were too risky. See, e.g., A4/557-558 (Tr.
2158-2159). Other interactions included a January 21, 2014 letter
from Joseph J. Corcoran that provided some, but not all, of the
information Mr. Mullins requested, A9/327-378, and Defendants’
“low-end offer” to buy Mr. Mullins’s interest, which (as the court
found) nobody expected Mr. Mullins to accept. A4/559 (Tr. 21652166).These were not meaningful efforts to engage with Mr. Mullins’s well-founded concerns. Compare O’Brien v. Pearson, 449
Mass. 377, 385 (2007) (“a reasonably practicable alternative
course would have included a more open, communicative, and inclusive manner of engagement between[the shareholders])”).

App. 92
In light of Defendants’ failure meaningfully to engage with his expressed concerns, Mr. Mullins was
faced with a binary choice: to defend his rights as a minority shareholder and his view of the company’s best
interests, or to abandon the protections negotiated in
the 1987 Agreement. Choosing to stand up rather than
roll over is not bad faith. See Medical Air Tech., 303
F.3d at 20, 22 (where shareholder’s choices were to either oppose merger vote based on misgivings, or support it, supporting the merger was “not a reasonable
and practicable alternative” under Wilkes).22
Filing suit based on a reasonable interpretation of
a contract later found to be ambiguous is not bad faith
or a breach of duty. The Superior Court inherently
recognized this with respect to Defendants’ counterclaims, which it ruled were “protected under Massachusetts common law by what’s known as the litigation
privilege.” A4/461 (Tr. 1782). The court never explained
why Mr. Mullins was not similarly protected. Indeed,
finding a breach under these circumstances would chill
efforts by minority shareholders to protect their rights
by petitioning the court for redress, raising serious
constitutional concerns. See, e.g., Professional Real Estate Investors, Inc. v. Columbia Pictures Indus., Inc.,
508 U.S. 49, 51, 60 (1993) (unless “no reasonable litigant could realistically expect success on the merits,”
22

Mr. Mullins alerted mortgage broker Fantini & Gorge to
the pending lawsuit, A11/155, but that was unquestionably harmless. A sophisticated broker or lender exercising diligence on a
multi-million-dollar deal would be expected to learn of pending
litigation from the client, CMJ.

App. 93
filing suit is constitutionally protected activity and
may not form the basis for liability); Blanchard v. Steward Carney Hosp., Inc., 477 Mass. 141, 158 n.24 (2017)
(“Both the United States Constitution and the Massachusetts Declaration of Rights provide a right to petition that includes the right to seek judicial resolution
of disputes.”).
The Superior Court’s erroneous decision also contravenes Massachusetts corporate law, which recognizes the need to protect minority shareholders in close
corporations. See Goode v. Ryan, 397 Mass. 85, 91
(1986) (minority shareholders in close corporations
are uniquely “susceptible to oppression by the majority”); Donahue, 367 Mass. at 588-592, 601 (recognizing
abuses that can occur in close corporation context by
majority and requiring “strict standard of duty”). No
one should be penalized for making a legitimate petition to the courts for relief under these doctrines – especially not a minority shareholder seeking to protect
his rights against the repeated depredations of the majority. The judgment against Mr. Mullins should be reversed.
*

*

*

